<html>
<title> - PLANNED PARENTHOOD EXPOSED: EXAMINING THE HORRIFIC ABORTION PRACTICES AT THE NATION'S LARGEST ABORTION PROVIDER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                 PLANNED PARENTHOOD EXPOSED: EXAMINING
                   THE HORRIFIC ABORTION PRACTICES AT
                 THE NATION'S LARGEST ABORTION PROVIDER

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2015

                               __________

                           Serial No. 114-41

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
                           ___________
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 9, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Member, Committee on the Judiciary.......     4
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Committee on the Judiciary.....     6

                               WITNESSES

Gianna Jessen, Abortion Survivor and Pro-Life Advocate and 
  Speaker, Franklin, TN
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
James Bopp, Jr., General Counsel, National Right to Life, 
  Washington, DC
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Priscilla J. Smith, Associate Research Scholar in Law, Senior 
  Fellow and Director, Program for the Study of Reproductive 
  Justice, Information Society Project, Yale Law School, New 
  Haven, CT
  Oral Testimony.................................................    44
  Prepared Statement.............................................    46
Melissa Ohden, Abortion Survivor, and Founder, Abortion Survivors 
  Network, Gladstone, MO
  Oral Testimony.................................................    58
  Prepared Statement.............................................    60

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Steve Cohen, a Representative 
  in Congress from the State of Tennessee, and Member, Committee 
  on the Judiciary...............................................     8
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    67
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    83
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on the Judiciary.............................   101
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   110
Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member, Committee on 
  the Judiciary..................................................   162
Material submitted by the Honorable Suzan DelBene, a 
  Representative in Congress from the State of Washington, and 
  Member, Committee on the Judiciary.............................   184
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................   192
Prepared Statement of the Honorable Doug Collins, a 
  Representative in Congress from the State of Georgia, and 
  Member, Committee on the Judiciary.............................   203
Additional Material submitted by the Honorable Zoe Lofgren, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   209

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................   212
Material submitted by the Honorable Bruce Poliquin, a 
  Representative in Congress from the State of Maine.......216<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Mike Bishop, a Representative 
  in Congress from the State of Michigan, and Member, Committee 
  on the Judiciary (see Rep. Mike Bishop Submissions at link 
  below).........................................................   190

  http://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=103920
  


 PLANNED PARENTHOOD EXPOSED: EXAMINING THE HORRIFIC ABORTION PRACTICES 
               AT THE NATION'S LARGEST ABORTION PROVIDER

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:39 a.m., in room 
2141, Rayburn Office Building, the Honorable Bob Goodlatte 
(Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Chabot, 
Issa, Forbes, King, Franks, Gohmert, Jordan, Poe, Gowdy, 
Labrador, Farenthold, Collins, DeSantis, Walters, Buck, 
Ratcliffe, Trott, Bishop, Conyers, Nadler, Lofgren, Jackson 
Lee, Cohen, Johnson, Chu, Deutch, Gutierrez, DelBene, 
Cicilline, and Peters.
    Staff present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Depuyt Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Paul Taylor, Chief Counsel, Subcommittee on the Constitution 
and Civil Justice; John Coleman, Counsel, Subcommittee on the 
Constitution and Civil Justice; Kelsey Williams, Clerk; 
(Minority) Perry Apelbaum, Staff Director & Chief Counsel; 
Danielle Brown, Parliamentarian and Chief Legislative Counsel; 
James Park, Chief Counsel, Subcommittee on the Constitution and 
Civil Justice; and Veronica Eligan, Professional Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order, and without objection the Chair is authorized to 
declare recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on Planned 
Parenthood Exposed: Examining the Horrific Abortion Practices 
at the Nation's Largest Abortion Provider. And I will begin by 
recognizing myself for an opening statement.
    Recently the Nation's attention has been drawn to a series 
of undercover videos recorded by members of a group called The 
Center for Medical Progress. These videos contained discussions 
with representatives of the abortion providing organization, 
Planned Parenthood, regarding the exchange of money for the 
body parts of unborn children to be used in research.
    Any discussion of abortion is inherently difficult as it is 
unquestionably the taking of a human life. That discussion 
becomes even more difficult when it turns to the monetary value 
of the body parts of more developed unborn children, and to the 
prospect of exposing them to potentially more painful abortions 
conducted in different ways without the mother's consent to 
preserve the added value of their more fully developed body 
parts. Yet these videos force us all to engage in that 
discussion, one that this Committee has been engaged in for 
some time now, and which now begins its phase of public 
hearings.
    There are questions regarding whether there are gaps in the 
law that should be filled to prevent the types of horrors 
described in the videos. There are questions regarding whether 
or not existing Federal laws have been violated. The Committee 
is aggressively seeking answers to these questions, but there 
is no question that the videos are deeply disturbing at a human 
level.
    The director of New York University's Division of Medical 
Ethics said in response to the videos that it is ethically very 
dangerous to change an abortion procedure for the purpose of 
collecting the organs of unborn children because then, ``you're 
starting to put the mom's health secondary.''
    One of the unborn baby tissue procurement companies caught 
on tape has already claimed to have severed its business 
relationship with Planned Parenthood. The head of Planned 
Parenthood herself has referred to what her own senior director 
of medical services said on the videos as unacceptable, and 
personally apologized for it. And during a sit-down interview 
on the New Hampshire Union Leader, Democratic presidential 
candidate, Hillary Clinton, said of the undercover videos, ``I 
have seen pictures of them and obviously find them 
disturbing.'' When the leading Democratic candidate for 
President says she finds the videos obviously disturbing, I 
think we can safely put to rest any allegations that the 
investigation of these acts is inappropriate.
    Some Members have questioned why our investigation is 
focused on the conduct of Planned Parenthood and not on the 
conduct of those who obtained the undercover footage. Part of 
the answer is that Planned Parenthood, unlike the undercover 
reporters, is granted huge amounts of Federal funds, making it 
our business as Members of Congress, charged with controlling 
Federal purse strings, to do what we can to ensure Federal 
taxpayer dollars are not contributing to the sorts of horrors 
reflected in the undercover videos.
    The conduct exposed by the undercover videos may help 
inform Congress on how to enact better laws, or to see to it 
that current laws are better enforced to help protect innocent 
life nationwide. To that end, the House has already passed The 
Pain Capable Unborn Child Protection Act, which would prohibit 
abortion with certain limited exceptions when women are 
entering the 6th month of pregnancy.
    Today, America is one of only seven countries on earth, 
including North Korea and China, that allow elective abortion 
after 20 weeks post-fertilization, and an overwhelming majority 
of just about every demographic group opposes its continued 
practice here. The Senate should pass that bill immediately, 
and the President should sign it, and in doing so help ensure 
that the body parts of late aborted babies cannot be sold 
because late-term abortions would be generally prohibited.
    In the meantime, the House Judiciary Committee today 
continues to examine additional ways of protecting human life 
and preserving the conscience of America. Today's hearing is 
the first part of a two-part hearing on this topic. I hope that 
this hearing helps to shed light on some of the Nation's 
darkest corners so the atrocities that some would very much 
like to dehumanize can be exposed for what they really are.
    I look forward to hearing from our witnesses here today, 
and it is now my pleasure to recognize the Ranking Member of 
the Judiciary Committee, the gentleman from Michigan, Mr. 
Conyers, for his opening statement.
    Mr. Conyers. Thank you very much, Mr. Chairman. And to the 
Members of the Judiciary Committee and our friends that are 
here in the hearing room, as this one-sided hearing title 
suggests, and by the way I have a file on these unusual titles 
that come up from time to time, we will likely hear a series of 
allegations leveled against Planned Parenthood, one of the most 
popular organizations for almost 100 years, that it engaged in 
unlawful conduct based solely on a series of deceptively edited 
undercover videos.
    Notably, the Center for Medical Progress, the entity that 
filmed these videos and which could answer significant and 
troubling questions of about their accuracy and veracity, is 
not here today. In addition, the majority chose not to invite 
Planned Parenthood, the target of today's attacks.
    As we hear from our witnesses, we should keep in mind the 
following points. To begin with, there is no credible evidence 
that Planned Parenthood violated the law. The videos wrongly 
implied that Planned Parenthood sells fetal tissue and organs 
for profit. That is not the case. The law governing fetal 
tissue research, which passed with overwhelming bipartisan 
support back in 1993, provides in part that no one can 
``knowingly acquire, receive, or otherwise transfer any human 
fetal tissue for valuable consideration.'' In short, for-profit 
sales, and purchases of fetal tissue are illegal. Similarly, 
Federal law prohibits for-profit sales and purchases of human 
organs. In both cases, however, valuable consideration does not 
include reasonable payments to cover certain costs associated 
with either fetal tissue or organ donations.
    The Center for Medical Progress' doctored videos do not 
support the allegation that Planned Parenthood sought profit 
from fetal tissue or organ donations. Rather, they show, among 
other things, discussions over payments for costs associated 
with fetal tissue or organ donation payments that the law 
clearly allows.
    The videos also wrongly suggest that doctors at Planned 
Parenthood violated the law by altering the procedures used to 
perform abortion so as to preserve fetal tissue or organs. 
There is no evidence that Planned Parenthood has altered 
methods. Moreover, the statutory prohibition on changing the 
timing, method, or procedures of an abortion to preserve fetal 
tissues applies only to certain federally-funded research, and 
such research has not been funded since 2007. In other words, 
the legal prohibition did not apply to Planned Parenthood at 
the time the Center's undercover videos were filmed.
    Finally, no evidence supports the suggestion that Planned 
Parenthood doctors may have violated the Partial Birth Abortion 
Ban Act. The fact that Planned Parenthood officials refer to 
intact fetuses and tissue specimens in many of the videos is 
immaterial. To violate the act, the physicians must partially 
deliver a living fetus and have the intent to terminate that 
fetus after its partial delivery. None of the videos shows any 
Planned Parenthood official engaging in or suggesting the use 
of such a procedure. In short, no reliable evidence 
demonstrates that Planned Parenthood violated Federal law.
    What is troubling about the videos is the manner in which 
they were produced. The Center for Medical Progress created a 
false tissue procurement company to use as a front in order to 
infiltrate Planned Parenthood facilities and to create the 
undercover videos, and may have deceived any number of State 
and Federal authorities to do so. Additionally, the Center 
heavily edited the videos to present a misleading picture of 
the surreptitiously recorded conversations in order to suggest 
illegal conduct by Planned Parenthood and to maximize the 
videos' shock value.
    A forensic analysis submitted to Congress has concluded 
that a thorough review of these videos in consultation with 
qualified experts found that they do not represent a complete 
or accurate record of the events they purport to depict. And 
even the alleged full footage released by the Center includes, 
and I quote, ``cuts, skips, missing tape, and changes in camera 
angle,'' as well more than 30 minutes of missing video, and 
took out of context so as to substantively and significantly 
alter the meaning of the dialogue.
    Finally, we must step back and look at the context in which 
this hearing itself is being held. The real purpose of the 
videos is to undermine one of the Nation's leading providers of 
high-quality healthcare for women. Planned Parenthood serves 
2.7 million Americans a year, and 1 in 3 women have used 
Planned Parenthood services by the age of 45. The organization 
is nearly 100 years old, and some abortion opponents are 
attempting to use these videos as a pretext to end Federal 
funding for Planned Parenthood. If successful, this effort 
would hurt those who rely on Planned Parenthood's services, and 
doing so would not prevent abortions.
    It is already the case that no Federal funds may be used to 
pay for abortions with certain limited exceptions. Instead, 
Federal funding pays for Planned Parenthood's many critical 
health services, such as annual wellness exams, cancer 
screenings, contraception, and to further the study of sexually 
transmitted diseases. Surely we in the Congress have better 
things to do than to spend our time helping to undermine an 
organization that provides such vital health services.
    And I thank you, Chairman Goodlatte.
    Mr. Goodlatte. The Chair now recognizes the Chairman of the 
Constitution and Civil Justice Subcommittee, Mr. Franks of 
Arizona, for his opening statement.
    Mr. Franks. Well, thank you, Mr. Chairman. Mr. Chairman, 
the United States of America is a unique Nation that is 
premised on the foundation that all of us in the human family 
were created equal, and that each of us is endowed by our 
Creator with this inalienable right to live. Yet this Committee 
is convened here today in a hearing titled, ``Planned 
Parenthood Exposed: Examining the Horrific Abortion Practices 
at the Nation's Largest Abortion Provider,'' because numerous 
video recordings have been recently released that 
incontrovertibly document corporate officers and employees of 
Planned Parenthood casually discussing their rampant practice 
of harvesting and selling the little body parts from many of 
the hundreds of thousands of innocent babies they are guilty of 
killing in their abortion clinics across this Nation every 
year.
    These video recording irrefutably reveal officers of 
Planned Parenthood haggling over the price of these little 
organs and body parts, and casually describing ways of killing 
these little babies, often using much more painful methods, 
like partial birth abortion, to make sure the sellable organs 
of these babies remains undamaged.
    One of these videos describes an incident where one of 
Planned Parenthood's employees calls one of the younger 
employees over to witness something that was ``kind of cool,'' 
that one of the babies' hearts was still beating. The older 
employee then said, ``Okay, this is a really good fetus, and it 
looks like we can procure a lot from it. We're going to procure 
a brain.'' And then using scissors, together the two employees, 
starting at the baby's chin, cut upward through the center of 
this child's face and pulled out the baby's little brain, and 
placed it in a container where it could later be sold.
    Mr. Chairman, I find it so crushingly sad that the only 
time this little baby was ever held by anyone in its short life 
was by those who cut his face open and took his brain. Have we 
forgotten that it was not so long ago that authorities entered 
the clinic of Dr. Kermit Gosnell? They found a torture chamber 
for little babies that really defies description within the 
constraints of the English language.
    The grand jury report at the time said, ``Dr. Kermit 
Gosnell had a simple solution for unwanted babies: he killed 
them. He didn't call it that. He called it 'ensuring fetal 
demise.' The way he insured fetal demise was by sticking 
scissors in the back of the baby's neck and cutting the spinal 
cord. He called it 'snipping.' Over the years, there were 
hundreds of snippings.''
    Ashley Baldwin, one of Dr. Gosnell's employees, said she 
saw babies breathing, and she described one as 2 feet long that 
no longer had eyes or a mouth, but in her words was ``making 
this screeching noise, and it sounded like a little alien.'' 
And yet the President of the United States of America and many 
Members of Congress have not uttered one single syllable 
against these gut-wrenching atrocities of Kermit Gosnell or 
Planned Parenthood. For God's sake, is this who we truly are?
    The fact is, Mr. Chairman, that more than 18,000 late-term 
pain capable unborn babies were torturously killed without 
anesthesia in America in just the last year. Many of them cried 
and screamed as they died, but because it was amniotic fluid 
going over the vocal cords instead of air, we could not hear 
them. It is the worst human rights atrocity in the history of 
the United States of America.
    Now, I know that many of you on this Committee will hold to 
the standard line and try to cloak all of this in the name of 
freedom of choice. But I beg you to open your own hearts and 
ask yourselves what is so liberating about brutally and 
painfully dismembering living helpless little human babies?
    In spite of all the political noise, protecting these 
little babies and their mothers is not a Republican issue, and 
it is not a Democrat issue. It is a basic test of our humanity 
and who we are as a human family.
    Mr. Chairman, the sands of time should blow over this 
Capitol dome before we ever give Planned Parenthood another 
dime of taxpayer money. And in the name of humanity, Democrat 
senators should end their filibuster against the Pain-Capable 
Unborn Child Protection Act in the U.S. Senate, because passing 
it would prevent the vast majority of these evil acts by 
Planned Parenthood these videos have now so clearly shown to 
the entire world.
    And with that, I yield back, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman, and now 
recognizes the Ranking Member of the Constitution and Civil 
Justice Subcommittee, the gentleman from Tennessee, Mr. Cohen, 
for his opening statement.
    Mr. Cohen. Thank you, Mr. Goodlatte. First, I want to say 
that this is one of the issues that divides this country and 
has for 40-some-odd years. It divides this Committee. I respect 
my Republican colleagues, Mr. Franks in particular, who have a 
strong-held position. But it is not my position, and it is not 
the position of most of the women in this country, and that is 
the position that women should have a right to choose.
    Roe v. Wade, a United States Supreme Court decision in the 
early 70's, made that point clear, and it is has been the law 
of the land for many years. This hearing is not about the 
videos. In fact, the videos have been doctored, and the videos 
are not what they are supposed to be, and it is show business. 
This hearing is about a woman's right to choose, and many 
people who for their honest beliefs feel should be a litmus 
test of a politician's life and support for ``life'' and human 
beings. They want to outlaw abortion, and they will not be 
happy until abortion is outlawed in the United States of 
America. That is what this hearing is about.
    And if you will notice, the testimony has been about 
abortion, and that issue is raised again. Planned Parenthood is 
simply a group where 3 percent of its work is abortion. Ninety-
seven percent of its work is about health for poor women, 
healthcare, screenings. And 2.7 million women a year get that 
healthcare. That is so important. My district is a poor 
district, and a lot of women in my district get their 
healthcare, primary female healthcare, from Planned Parenthood. 
And to cut off Federal funding would deny them that healthcare.
    I know that will not make a big difference to many on the 
other side for none on the other side voted for the Affordable 
Care Act, even though it is a growth out of two of the great 
Presidents of the Republican side, Teddy Roosevelt and Richard 
Nixon, both of whom espoused it. But not a one voted for the 
Affordable Care Act. The Affordable Care Act helps women get 
healthcare, but because some on the extreme side, particularly 
in the South in legislatures and governors, have not expanded 
Medicaid to many women who need healthcare, which they can do 
at no cost and at great fiscal as well as fiscal benefit to 
their States, have denied healthcare to women. This would 
further deny healthcare to women.
    Planned Parenthood cannot use, because of law that has been 
on the books since the 70's, any Federal funds for abortion. 
That is outlawed, unless it is the life of the mother, incest 
exceptions. Rape, incest, life of the mother. With the 
exception of those three exceptions, you cannot use Federal 
funds for abortion anyway.
    So we are talking about annullity. This is the government 
takeover of healthcare, the death panel in healthcare, the 
Benghazi of healthcare hearing. It is a way to get attention to 
an issue that these people want to highlight. I do not doubt 
their sincerity in wanting to highlight it, but it is just 
wrong in 2015. We should be going forward and not backwards in 
this country, and to a lot of people who say we want to take 
back our country, what they say is they want the country of 
Dwight Eisenhower, a fine many who operated at a time before 
civil rights, before women's rights, before gay rights, before 
people had opportunities independent of physical 
characteristics or sexual orientation.
    America has moved forward, and it is not going to go 
backwards. It is a new America, and you are not going to get 
that America back. I loved Ricky Nelson and Ozzie, but they are 
history. It is gone. It is a new America. And this hearing is 
about eliminating and overruling Roe v. Wade. It is about 
partial birth abortion. It is about abortion, period.
    There are 143, I believe it is, labor civil rights and 
civil liberties groups that say that this hearing should not 
necessarily be held, and they oppose these efforts to defund 
Planned Parenthood. And I would like to enter into the record a 
list of these groups, if that is okay, Mr. Chairman.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                      __________
    Mr. Cohen. Great. I value the Republicans' opinions. They 
are strong felt, and I understand that, and there is a big 
difference in this country. But for me, Planned Parenthood is 
part of my DNA. It is one of the finest organizations in this 
country. It helps women, women of color, poor women, and it 
gives them choice as the Supreme Court gave them choice. It is 
about upholding the law of the land.
    A lot of people here would not want the law of the land to 
be held up in that county in Kentucky where some woman refused 
to do what the Supreme Court told her, and they made her a 
hero. I say fund Planned Parenthood. It does not deliver 
abortions with Federal funds. This hearing is about abortion, 
and I support Roe v. Wade. And I yield back the balance of my 
time.
    Mr. Goodlatte. Without objection, all other Members' 
opening statements will be made a part of the record.
    We welcome our distinguished witnesses today, and if you 
would all please rise, I will begin by swearing you in.
    Do you and each of you solemnly swear that that testimony 
that you are about to give shall be the truth, the whole truth, 
and nothing but the truth, so help you God?
    [A chorus of ayes.]
    Mr. Goodlatte. Thank you. You may all be seated, and let 
the record reflect that the witnesses responded in the 
affirmative.
    Ms. Gianna Jessen survived a failed abortion when she was a 
baby. A pro-life advocate and speaker, Ms. Jessen currently 
lives in Franklin, Tennessee.
    Mr. James Bopp, Jr. has served as National Right to Life's 
general counsel since 1978. In 1987, Mr. Bopp was appointed by 
the U.S. Congress to the Biomedical Ethics Advisory Committee, 
which advises Congress on the ethical issues arising from 
delivery of healthcare and from biomedical and behavioral 
research.
    In 1988, Mr. Bopp served on the Human Fetal Tissue 
Transplantation Research Panel for the National Institutes of 
Health. Mr. Bopp has testified before numerous Federal and 
State legislative committees, hearings on pro-life issues, and 
has argued before the United States Supreme Court.
    Ms. Priscilla J. Smith is director of the Program for the 
Study of Reproductive Justice at the Information Society 
Project at the Yale Law School. Prior to joining the ISP, Smith 
was an attorney with the Center for Reproductive Rights for 13 
years serving as the U.S. legal program director from 2003 to 
2007, and litigated cases nationwide. She conducts research and 
writes on privacy, reproductive rights and justice, and the 
information society.
    Ms. Melissa Ohden also survived an abortion as a baby. She 
is the founder of the Abortion Survivors Network.
    All of your written statements will be entered into the 
record in their entirety. I ask that each of you summarize your 
testimony in 5 minutes or less, and to help you stay within 
that time, there is a timing light on your table. When the 
light switches from green to yellow, you have 1 minute to 
conclude your testimony. When the light turns red, it signals 
that your 5 minutes have expired.
    Ms. Jessen, welcome, and we are pleased to start with you. 
You want to push that button at the bottom and make sure it is 
on.

  TESTIMONY OF GIANNA JESSEN, ABORTION SURVIVOR AND PRO-LIFE 
               ADVOCATE AND SPEAKER, FRANKLIN, TN

    Ms. Jessen. Is it on?
    Mr. Goodlatte. Yes.
    Ms. Jessen. Sorry. Good morning. My name is Gianna Jessen, 
and I would like to thank you so much for the opportunity to 
testify here today. My biological mother was 7-and-a-half 
months pregnant when she went to a Planned Parenthood and they 
advised her to have a late-term saline abortion.
    This method of abortion burns the baby inside and out, 
blinding and suffocating the child, who is then born dead 
usually within 24 hours. And there should be a photo there. 
Yes. This is what I survived.
    Instead of dying, after 18 hours of being burned in my 
mother's womb, I was delivered alive in an abortion clinic in 
Los Angeles on April the 6th, 1977. You can see a photo as well 
of my medical records. My medical records state, ``born alive 
during saline abortion, 6 a.m.'' Victory. Thankfully the 
abortionist was not at work yet. Had he been there, he would 
have ended my life with strangulation, suffocation, or leaving 
me there to die. Instead, a nurse called an ambulance, and I 
was rushed to a hospital. Doctors did not expect me to live. I 
did.
    I was later diagnosed with cerebral palsy which was caused 
by a lack of oxygen to my brain while surviving an abortion. I 
was never supposed to hold up my head or walk. I do. And 
cerebral palsy, ladies and gentlemen, is a tremendous gift to 
me.
    I was eventually placed in foster care and later adopted, 
and hear me clearly. I forgive my biological mother. Within the 
first year after my birth, I was used as an expert witness in a 
case where an abortionist had been caught strangling a child to 
death after being born alive.
    Margaret Sanger, the founder of Planned Parenthood, said 
the following: ``The most merciful thing that a large family 
does to one of its infant members is to kill it.'' Planned 
Parenthood is not ashamed of what they have done or continues 
to do, but we will have to give an account as a Nation before 
God for our apathy and for the murder of over 50 million 
children in the womb.
    Every time we falter in courage as individuals and fail to 
confront this evil, I wonder how many lives have been lost in 
our silence while we make sure we are lauded among men and that 
we do not offend anyone. How many children have died and been 
dismembered and their parts sold for our ego, our convenience, 
and our promiscuity? How many Lamborghinis were purchased with 
the blood innocent children, the blood that cries to the Lord 
from the ground like that of the blood of Abel? Not one of 
them, ladies and gentlemen, is forgotten by Him.
    I would ask Planned Parenthood the following questions 38 
years later. I would ask them these questions. If abortion is 
about women's rights, then what were mine? You continuously use 
the argument if the baby is disabled we need to terminate the 
pregnancy as if you can determine the quality of someone's 
life. Is my life less valuable due to my cerebral palsy? You 
have failed in your arrogance and greed to see one thing. It is 
often from the weakest among us that we learn wisdom, something 
sorely lacking in our Nation today, and it is both our folly 
and our shame that blinds us to the beauty of adversity.
    Planned Parenthood uses deception, the manipulation of 
language, and slogans, such as ``a woman's right to choose,'' 
to achieve their monetary aims. I will illustrate how well they 
employ this technique with the following quote: ``The 
receptivity of the masses is very limited. Their intelligence 
is small, but their power of forgetting is enormous. In 
consequence of these facts, all effective propaganda must be 
limited to a very few points and must harp on these slogans 
until the last member of the public understands what you want 
him to understand by your slogan.'' Adolf Hitler.
    We often hear that if Planned Parenthood were to be 
defunded there would be a health crisis among women without the 
services they provide. This is absolutely false. Pregnancy 
resource centers are located nationwide as an option for the 
woman in crisis. All of their services are free and 
confidential. They can be reached by texting helpline to 
313131. There is access to vital exams for women other than 
Planned Parenthood. We are not a Nation without options.
    Planned Parenthood receives $500 million of taxpayer money 
a year to primarily destroy and dismember babies. Do not tell 
me these are not children. A heartbeat proves that, so does 40 
ultrasounds. So do I, and so does the fact that they are 
selling human organs for profit. Do not tell me this is only a 
woman's issue. It takes both a man and a woman to create a 
child.
    And to that point I wish to speak to the men listening to 
me. You are made for greatness. You were born to defend women 
and children, not to use and abandon us, nor sit idly by while 
you know we are being harmed. And I am asking you to be brave.
    In conclusion, let me say I am alive because of the power 
of Jesus Christ alone, in Whom I live, move, and have my being. 
Without Him, I would have nothing, and with Him I have all. 
Thank you.
    [The prepared statement of Ms. Jessen follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                             PAGE 5 (BLANK)
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________
    Mr. Goodlatte. Thank you, Ms. Jessen, for that compelling 
testimony.
    Mr. Bopp, welcome.

 TESTIMONY OF JAMES BOPP, JR., GENERAL COUNSEL, NATIONAL RIGHT 
                    TO LIFE, WASHINGTON, DC

    Mr. Bopp. Thank you, Mr. Chairman, and I appreciate the 
opportunity to speak. I have substantial familiarity with this 
subject, and Mr. Chairman mentioned my participation in the 
Fetal Tissue Transplant Research Panel impaneled by NIH on the 
question of whether or not fetal tissue transplantation 
research should be funded.
    The panel recommended that the moratorium that the Bush 
Administration had issued be lifted. Four of us dissented, and 
Father James Burtchaell and I published a lengthy dissent. 
Based upon some of the arguments in that dissent, the Bush 
Administration continued the moratorium on funding such 
research.
    Based on the information that has come to light through the 
investigative reporting of CMP, it is apparent that Planned 
Parenthood fetal tissue procurement practices violate Federal 
and State laws when applicable, ethical and moral principles, 
and their own guidelines and promises to their patients. There 
are reasons why this happens, and it is, frankly, inevitable.
    First, Planned Parenthood believes that the unborn has no 
human rights and can be killed at will at any time during 
pregnancy with the consent of the mother. History tells us that 
as soon as you strip human beings of all legal rights, people 
will be treated as commodities, and abuse is inevitable.
    Second, Planned Parenthood receives substantial financial 
incentives for harvesting fetal tissue, and their love of money 
supersedes all other consideration. In the CMP videos, there 
are reported incidences of babies born intact and potentially 
alive after an induced abortion because he or she had a 
heartbeat. And the fetal brain was removed by taking scissors 
and cutting the face open to extract the brain. This barbaric 
practice, if true, and if the child were, in fact, alive, 
rivals any of the documented abuses of human persons in medical 
research throughout history.
    But it goes beyond any individual instance. Planned 
Parenthood's lust for money from fetal tissue procurement, in 
some instances equal or even exceed the cost they charge for 
the abortion itself, has apparently caused Planned Parenthood 
to change all relevant aspects of the abortion procedure 
itself.
    As a Planned Parenthood abortion physician explained, she 
would meet with tissue procurement people before the day's 
schedule of abortions and find out what tissue they wanted, and 
then she would target those particular abortions which might 
yield the fetal tissue that researchers wanted to purchase. In 
so doing, she made clear that she would change the abortion 
procedure to obtain the fetal tissue intact by only crushing 
those parts of the fetal body that contained tissue not being 
sought, or by trying to extract the baby feet first to 
encourage an intact delivery.
    So the abortionist starts her day with a shopping list and 
spends the rest of the day trying to fill that list with fetal 
tissue. In other words, she said, ``If I know what they're 
looking for, I'll just keep it in the back of my mind, and try 
to at least keep that part intact.'' So rather than being on a 
search and destroy mission for the mother, the Planned 
Parenthood abortionist is now on a search and harvest mission 
for their own profit.
    These practices potentially violate several Federal and 
State laws when applicable, various moral and ethical 
principles, and even Planned Parenthood's own guidelines. 
First, Federal and State law prohibits valuable consideration 
which has been mentioned. However, there is a gaping loophole 
which is allowing reasonable payments for the procurement costs 
that are associated with harvesting fetal tissue. However, even 
with this broad exception, the evidence now is clear that 
Planned Parenthood, even if they are complying with it, that it 
creates sufficient financial incentives for substantial abuse 
to occur. But the evidence also demonstrates that they go even 
beyond this broad exception to negotiate a per specimen market 
price with no regard to the associated cost.
    Planned Parenthood also readily changes the abortion 
procedure to gain more fetal tissue to sell, which would 
certainly violate Federal law for funding of fetal tissue 
transplantation research, which admittedly has not occurred 
since 2007. But it certainly violates the promise Planned 
Parenthood made to their patients not to change the abortion 
procedure, and the Planned Parenthood president has admitted to 
Congress this is exactly what they do. And Planned Parenthood 
may not even get consent to obtain the donations as required by 
many Federal and State laws, and there is evidence that 
technicians simply grab whatever tissue is available regardless 
of consent.
    But finally, there is substantial evidence that children 
are born intact and alive, and they are killed for their 
tissue. Federal law prohibits through the Partial Birth 
Abortion Ban Act and the Born Alive Infant Protection Act 
killing live-born infants after an induced abortion either 
during delivery or after delivery. This law passed in 2000 has 
an important, but limited, purpose, and that is a child born 
alive after an induced abortion has the same legal rights as 
the rest of us. It is not dependent upon the desires of the 
mother. There is no right to a dead baby as a result of the 
abortion. And finally that it is not viability, but being born 
alive, which is a critical legal point.
    There is now, however, sufficient evidence both from CMP 
and otherwise that abortionists are not taking these legal 
protections seriously, and general criminal law is just too 
blunt an instrument to provide sufficient legal protection for 
live-born infants when abortion clinics have financial 
incentives to encourage delivery of intact and potentially 
live-born infants, who they could then kill to harvest their 
fetal tissue.
    This law needs to be updated to ensure that live-born 
infants are not killed, but that they also receive appropriate 
care just like everyone else. Thank you.
    [The prepared statement of Mr. Bopp follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    
                __________
    Mr. Goodlatte. Thank you, Mr. Bopp.
    Ms. Smith, welcome.

TESTIMONY OF PRISCILLA J. SMITH, ASSOCIATE RESEARCH SCHOLAR IN 
   LAW, SENIOR FELLOW AND DIRECTOR, PROGRAM FOR THE STUDY OF 
  REPRODUCTIVE JUSTICE, INFORMATION SOCIETY PROJECT, YALE LAW 
                     SCHOOL, NEW HAVEN, CT

    Ms. Smith. I am an associate research scholar in law at 
Yale Law School where I direct the Program for the Study of 
Reproductive Justice. I am testifying today in my personal 
capacity and do not purport to represent the institutional 
views of Yale Law School, of course. Thank you for the 
opportunity to testify.
    I will make a few points here, and obviously I am open for 
questioning. I do not repeat some of the important points that 
have already been made by the Members, but I do want to point 
out a few things. First of all, this attack is part of a long 
campaign to discredit Planned Parenthood and other abortion 
providers. It is an indeed an attack on the right to abortion.
    But Planned Parenthood has been a specific target of many 
of these types of attacks, and just since the year 2000 they 
have been the target of nine similar smear campaigns using 
hidden videos or other recordings full of innuendo and false 
claims. Every single time these allegations have been 
thoroughly investigated and debunked.
    Second, I will make a quick comment on the videos. I am 
very reluctant to rely on anything in these videos given the 
findings of a team of forensic experts that has been submitted 
to this Congress, to this Committee rather, which found that 
the tapes have been distorted and misleadingly edited, and as a 
result, have no evidentiary value. This has also been 
recognized in a report issued this morning by the House 
Committee on Energy and Commerce, which also found that there 
is no evidence that Planned Parenthood or its affiliates have 
violated any Federal or State laws, and this is after 
conducting a thorough investigation, questioning witnesses, and 
reviewing documents.
    I can comment, however, on the statutes as issued. As has 
been pointed out, the Federal tissue statute does ban the sale 
of fetal tissue, but it specifically allows those who donate 
tissue to recoup reasonable reimbursement for costs, such as 
the cost of maintaining, storing, and transporting fetal 
tissue. These fetal tissue provisions were adopted with broad 
bipartisan support, passing by a vote of 93 to 4 in the Senate, 
for example.
    And Planned Parenthood officials specifically state in the 
videos in numerous statements that were edited out of the short 
videos that were put on the Web that they are only seeking 
reimbursement costs, that they do not make profits from fetal 
tissue donation. And, in fact, they refused contracts that were 
offered that offered unreasonable costs. There is simply 
nothing in the tapes that indicate a violation of the fetal 
tissue law.
    There are also these allegations that these misleadingly 
edited video tapes provide probable cause to believe that 
Planned Parenthood violates the Partial Birth Abortion Ban Act. 
Now, I am intimately familiar with that act. I was lead counsel 
in the case challenging the act. The Supreme Court upheld the 
law over my objections, and held that the law was narrowly 
interpreted to apply in situations to which intactness is 
completely irrelevant. So the allegations here are based mostly 
on repeated statements of the word ``intact'' in a sort of 
ominous manner, the word being repeated both by interviewees 
and interviewers, kind of Law and Order style in the videos.
    But intactness has no relevance. It is neither sufficient 
nor is it perhaps even required to establish a violation of the 
act. Instead, all that matters under the statute is whether at 
the outset of the procedure, the physician had the intent to do 
two things: vaginally deliver a living fetus up to certain 
anatomical landmarks, and then, second, perform a step to cause 
fetal demise at that point.
    Now, the reason it was so limited was because interpreting 
it more broadly would have applied to many abortion procedures. 
And I am not surprised that there is so much confusion about 
this partial birth abortion statute because it was deceptively 
campaigned for in this Congress and to this Congress, and 
people were convinced it had something to do with banning late-
term post-viability abortions to which it does not apply 
whatsoever. So, again, there is no evidence that physicians at 
Planned Parenthood perform procedures in a way outlawed by the 
act.
    Now, also there are a number of questions that have been 
raised generally about the ethics of fetal tissue donation. 
When similar issues were raised during the Reagan 
Administration, the National Institutes of Health convened a 
research panel of ethicists and scientists, those on both sides 
of the abortion issue. As Mr. Bopp stated, he, in fact, was on 
that panel. It was also chaired by a former judge who was 
himself anti-abortion. And a decisive majority of that panel 
found that fetal tissue research was morally desirable because 
it held great medical promise and could be accomplished without 
incentivizing abortion in any way. And, in fact, it has done 
so, and many medical advances have come from that research.
    I see that my time is almost done, so I want to skip to 
what I think is the really horrifying thing about this hearing. 
The horrifying thing here is the mismatch between the 
allegations and concerns here about abortion, about fetal 
tissue research and what is being considered, which is 
defunding Planned Parenthood's non-abortion related services. 
As Judge Kavanaugh of the D.C. Circuit explained recently in 
his dissent from the denial of re-hearing en banc in Priests 
for Life, providing seamless access to contraceptives, which is 
a large portion of what Planned Parenthood does, ``reduces the 
number of unintended pregnancies. It furthers women's health. 
It advances women's personal and professional opportunities, 
reduces the number of abortions, and helps break a cycle of 
poverty.
    So the horrible irony here is that defunding Planned 
Parenthood would increase the number of unintended pregnancies 
and drastically, I fear, increase the number of abortions that 
are necessary in this country. Thank you.
    [The prepared statement of Ms. Smith follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                 __________
    Mr. Goodlatte. Ms. Ohden, welcome.

  TESTIMONY OF MELISSA OHDEN, ABORTION SURVIVOR, AND FOUNDER, 
           ABORTION SURVIVORS NETWORK, GLADSTONE, MO

    Ms. Ohden. Thank you so much for your time this morning, 
Mr. Chairman and representatives.
    Three hundred twenty-seven thousand, six hundred and fifty-
three. This is the number of abortions that Planned 
Parenthood's 2014 fiscal report lists as being completed that 
year. Based on these numbers, 897 children will lose their 
lives to an abortion completed by Planned Parenthood each and 
every day.
    Why do I find this horrific? Because I actually have a lot 
in common with them. I was meant to be one of them. I should 
have been just another statistic, but by the grace of God I am 
more than a statistic. I come here to you today as a wife, a 
mother, a daughter, a sister, a master's level prepared social 
worker, and, yes, as an abortion survivor, from a botched 
abortion to the dreaded complication, a child who lives.
    I have been called just about everything that you can 
imagine, but if you want to turn your attention up to the 
screen, as you can see in my medical records from 1977, kind of 
right there in the middle, saline infusion for an abortion was 
done, but was unsuccessful. And at other times throughout my 
medical records you will read statements like the complication 
of my birth mother's pregnancy was a saline infusion abortion.
    You could certainly say that saline infusion complicated 
the pregnancy. It has taken years to unravel the secrets 
surrounding my survival, to have contact with my biological 
family, and even medical professionals that cared for me. And 
although there are still unanswered questions, what I do know 
is that my life was intended to be ended by that abortion. And 
even after I survived, my life was in jeopardy.
    You would not know it by looking at me today, but in August 
1977, I also survived a saline infusion abortion. And as Gianna 
shared, that saline infusion abortion involves injecting a 
toxic salt solution into the amniotic fluid surrounding the 
pre-born child. The intent of that toxic salt solution is to 
scald the child to death from the outside in. For days I soaked 
in that toxic salt solution, and on the 5th day of the 
procedure, my biological mother, who was a 19-year-old college 
student, delivered me after her labor was induced. I should 
have been delivered dead that day as a successful abortion.
    In 2013, I learned through contact with my biological 
mother's family that not only was this abortion forced upon her 
against her will at the age of 19, but also that it was my 
grandmother, my maternal grandmother, a nurse, who delivered me 
in this final step of the abortion procedure at St. Luke's 
Hospital in Sioux City, Iowa. Unfortunately I also learned that 
when my grandmother realized that the abortion had not 
succeeded in ending my life, she demanded that I be left to 
die.
    I may never know how exactly the two nurses who were on 
staff that day found about me, but what I do know is that their 
willingness to fight for medical care to be provided to me 
ultimately sustained my life.
    And I know there were children like me who were left to die 
at St. Luke's Hospital. I met a nurse there who delivered a 
child much like me in 1976. She delivered a little boy after a 
failed saline infusion abortion, but she followed her 
superiors' orders, and she placed him there in a utility closet 
in a bucket of formaldehyde to be picked up later as medical 
waste after he was left there to die alone. A bucket of 
formaldehyde in a utility closet was meant to be my fate after 
I survived that abortion attempt.
    I weighed a little less than 3 pounds when I survived. I 
suffered from jaundice, severe respiratory problems and 
seizures for an extended period of time. And one of the first 
notations in my medical records by a doctor after I survived is 
that I looked like I was about 31 weeks gestational age when I 
was delivered.
    Despite the miracle of my survival, the doctor's prognosis 
for my life was very poor initially. My adoptive parents were 
told that I would suffer from multiple disabilities throughout 
my life, yet here I am today perfectly healthy. Yet I know it 
is not just how abortion ends the life of children like me that 
is not talked about in today's world. It is also not discussed 
what happens to children like me who live. I can tell you we 
are your friend, your neighbor, your co-worker, and you would 
likely never guess by passing us on the street that we survived 
what we did.
    In my work as the founder of the Abortion Survivors 
Network, I have had contact with 203 of these other survivors. 
Letters from some of those survivors have been submitted to 
this Committee. I am here today to share my story to not only 
highlight the horror of abortion taking place at Planned 
Parenthood, but to give a voice to other survivors like me, 
and, most importantly, to give a name, a face, and a voice to 
the hundreds of thousands of children who will have their lives 
ended by Planned Parenthood this year alone.
    As you consider the horrors of what happens at Planned 
Parenthood each day, I would urge you to remember my story and 
Gianna's, too. We may not have survived abortions at Planned 
Parenthood, but the expectation for our lives to be ended by 
abortion are the very same as those who do lose their lives 
there. And I have long believed that if my birth mother's 
abortion would have taken place at a Planned Parenthood, I 
would not be here today. Completing over 300,000 abortions a 
year provides them with the experience to make sure that 
failures like me do not exist.
    As a fellow American and as a fellow human being, I deserve 
the same right to life, the same equal protection under the law 
as each and every one of you. Yet we live in a time where not 
only do such protections not exist, but my own tax dollars and 
yours go to fund an organization that has perfected the very 
thing that was meant to end my life, and this must end.
    [The prepared statement of Ms. Ohden follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                     __________
    Mr. Goodlatte. Thank you very much, Ms. Ohden. We will 
begin the questioning of the witnesses under the 5-minute rule, 
and I will begin by recognizing myself.
    We will hear a lot today about efforts to sanitize the 
discussion of what takes place with regard to late-term 
abortions, which were the subject of the videos that have been 
made public. But, Ms. Jessen, I would like to read you a 
statement from the video and then another statement offered by 
the Center for Reproductive Rights and get your reaction to 
that, what I would call, sanitization.
    In the first video, Dr. Deborah Nucatola describes a D&E 
abortion saying, ``So I am not going to crush that part. I'm 
going to crush basically below. I'm going to crush above.'' 
Planned Parenthood issued an apology for Nucatola's tone, but a 
markedly more clinical tone is used in a lawsuit brought by the 
Center for Reproductive Rights, a leading abortion advocacy 
group, against a Kansas law prohibiting dismemberment abortion.
    In the suit, CRR states, ``starting around 15 weeks LMP, 
physicians performing abortions may use forceps or other 
instruments to remove the products of conception from the 
uterus often in combination with suction. Usually 
disarticulation of the fetus occurs as the physician brings 
fetal parts through the cervix. This procedure is known as 
dilation and evacuation, or D&E procedure.'' As someone who has 
survived an abortion, can you please tell us how these two 
descriptions of an abortion procedure make you feel?
    Ms. Jessen. My face. You can probably just see my face. It 
is horrifying to me, absolutely horrifying to hear such things. 
But I also will never ever forget for as long as I live 
watching Dr. Nucatola eat a salad and drink wine discussing so 
casually the dismemberment of children, and I will never ever 
forget that. I find it absolutely appalling that we are even 
having to conduct such a hearing in the United States of 
America. I hope that sufficiently answers your question.
    Mr. Goodlatte. It does. Thank you. Mr. Bopp, several years 
ago, there was a news story that came out of Florida about an 
abortion survivor who was not rescued. Instead, according to 
World Magazine, the child was born alive in a toilet while the 
mother sought anxiously for someone at the abortion clinic to 
help her baby, but no one would help, and the baby died. Mr. 
Bopp, are you aware of other evidence that some abortion 
survivors are not rescued?
    Mr. Bopp. Yes, and the example that you gave was from 
Hialeah, Florida in 2006 when a live-born infant was born in an 
abortion clinic, and what happened to the live-born infant was 
the baby was put in a medical waste bag to die rather than 
provided any care or treatment. There have been a number of 
criminal and civil actions taken in that instance. But the 
people involved at the clinic were not charged, however, with 
the specific death of the child that they clearly caused.
    There have been other instances in the Kermit Gosnell case 
when, of course, he was killing born infants or partially-born 
infants using scissors by thrusting them into the back of the 
neck of the child. You do not do that if the baby is dead. You 
only do that if the baby is alive. And, of course, we do not 
know for sure whether that was while the baby was still in the 
womb partially or was, in fact, outside of the womb.
    Mr. Goodlatte. Thank you, Mr. Bopp. Ms. Smith----
    Ms. Smith. Yes?
    Mr. Goodlatte [continuing]. In the precursor to the 
Gonzales case, the case of Stenberg v. Carhart, Justice Kennedy 
dissented from the decision to strike down the partial birth 
abortion ban, which was later upheld in the Gonzales case in a 
different ban.
    Ms. Smith. A different version, yes.
    Mr. Goodlatte. That is right. He described at length the 
testimony provided by abortionist Leroy Carhart about the 
alternative D&E method or dismemberment procedure. The fetus 
can be alive at the beginning of the dismemberment process and 
can survive for at time while its limbs are being torn off.
    Dr. Carhart agreed that when you pull out a piece of the 
fetus, let us say, an arm or a leg, and remove that at the time 
just prior to removal of the portion of the fetus, the fetus is 
alive. Dr. Carhart also has observed a fetal heartbeat via 
ultrasound with extensive parts of the fetus removed, and 
testified that mere dismemberment of a limb does not always 
cause death because he knows a physician who removed the arm of 
a fetus only to have the fetus go on to be born as a living 
child with one arm. At the conclusion of a D&E abortion, no 
intact fetus remains. In Dr. Carhart's words, the abortionist 
is left with a tray full of pieces.
    Justice Kennedy said, ``The fetus in many cases dies just 
as a human adult or child would. It bleeds to death as it is 
torn from limb from limb.'' Ms. Smith, do you believe this 
practice represents a humane way to die?
    Ms. Smith. Let me separate, which I think something that is 
getting confused here in this hearing again and again, which is 
procedures performed on pre-viable fetuses and procedures that 
are performed on viable fetuses. Both of the women here on this 
panel are here today because they were viable at the time the 
procedures were performed.
    What you are talking about is pre-viability procedures 
performed on a fetus that cannot survive outside the womb.
    Mr. Goodlatte. Maybe, maybe not. Justice Kennedy was 
talking about a child that was born alive with only one arm 
because the other had been pulled off already in the abortion 
procedure. My question to you is--are you going to answer it--
is this a humane way to die?
    Ms. Smith. I believe for a fetus, pre-viable fetus, yes, a 
D&E procedure is a very humane procedure, and it protects the 
woman and her health and safety more than any other procedure. 
And, in fact, it was substituted for the saline infusion 
procedure.
    Mr. Goodlatte. Ms. Smith, I am going to reclaim my time and 
just say that I have to say that your view of humanity and mine 
are different.
    Ms. Smith. I think----
    Mr. Goodlatte. And I will ask Ms. Jessen, and Mr. Bopp, and 
Ms. Ohden very quickly if you support, because you have already 
answered this question, if you support the Pain Capable 
Abortion Act that has passed the House of Representatives and 
is awaiting action in the United States Senate. Mr. Bopp?
    Mr. Bopp. Yes. It is necessary for a number of reasons and 
pertinent to----
    Mr. Goodlatte. It would prevent many of the instances I 
just described to the three of you, would it not?
    Mr. Bopp. It would and could also prevent some of the 
instances, because we do not know for sure the gestational age 
of the child in some of the instances in the videos. But I 
could have also prevented some of them.
    Mr. Goodlatte. Correct. Ms. Jessen?
    Ms. Jessen. I am speechless with Ms. Smith's reply that she 
thinks that is a humane way to die. I support.
    Mr. Goodlatte. Ms. Ohden?
    Ms. Ohden. Yes, I, too, support the Pain Capable Act, and I 
want to make it clear that I want abortion to be unthinkable in 
our country.
    Ms. Jessen. Yes.
    Ms. Ohden. I want us to not even have to have a 
conversation about another act.
    Mr. Goodlatte. Thank you. I agree. Mr. Conyers? The 
gentleman from Michigan is recognized for his questions.
    Mr. Conyers. Thank you, Mr. Chairman. I thank all the 
witnesses for being here today, but I want to direct my 
discussion with Ms. Smith. You note in your written testimony 
that Section 289(g)(2)(A) prohibits the transfer of any human 
fetal tissue for valuable consideration. But the videos do not 
explain that the law specifies that valuable consideration does 
not include reasonable payment reimbursing costs.
    Would an individual watching these videos have any idea 
that the law excludes the reimbursement of reasonable costs?
    Ms. Smith. No, I think they would not, and I think they are 
very deceptive in that regard so that they juxtapose 
discussions of money with the text of the ban on valuable 
consideration. It makes it appear that the money that is being 
discussed is the ``valuable consideration'' that is banned. 
There is no mention of the reasonable payments provision in the 
act and the allowance for reimbursement of reasonable expenses, 
and I think that is terribly deceptive in the video, yes.
    Well, I think that is a very perceptive response on your 
part. What are some of the examples of reasonable reimbursement 
costs, Ms. Smith?
    Ms. Smith. Transportation costs, processing, preservation, 
quality control, storage. Those are all examples in the statute 
itself, and those are the things that would be appropriate.
    Mr. Conyers. Thank you. You note that fetal tissue research 
has provided innumerable medical benefits and has saved lives. 
Could you please explain what these medical benefits have been?
    Ms. Smith. Yes. In fact, in addition to the early polio 
vaccine in the 1930's, that was actually a result of fetal 
tissue research. There are more recent examples, and the 
Department of Health and Human Services has called fetal tissue 
research vital to the improvements that are being made in some 
very important areas, such as retinal degeneration, 
Parkinson's, ALS, infectious diseases, developmental disorders, 
autism, schizophrenia, diabetes. So there are many, many areas 
in which fetal tissue research has proved important, and we are 
actually seeing lives being saved because of it and lives 
improved because of new treatments.
    Mr. Conyers. Thank you. Could you explain, please, Ms. 
Smith, the ramifications for women if their access to abortion 
services is further restricted or ultimately denied?
    Ms. Smith. Yes. I think one of the things we are seeing 
recently is a new wave of attack on abortion access in 
particular. So an unprecedented number of restrictions have 
been enacted in the last 4 years by state legislatures, which 
have been designed really and have resulted in the closure of 
many clinics throughout the country.
    So Texas, in particular, as has been in the news quite 
often, has seen the number of clinics that are closed by half. 
There are States that have only one abortion provider for all 
residents in the State, like Mississippi and North Dakota. And 
in those States, many women are unable to get abortions. They 
cannot travel the distance required to obtain abortions.
    And the result of that is women with pregnancies that they 
do not wish to carry to term. Some of them will suffer health 
impacts, and some of them their lives will be endangered, and 
they will get sick. But also abortion is also equally important 
because as the Supreme Court has recognized, it protects the 
ability of women to participate equally in the economic and 
social life of the Nation. As Justice Ginsberg put it, 
``Abortion preserves a woman's autonomy to determine her life's 
course and, thus, to enjoy equal citizenship stature.''
    And that is why I believe the Supreme Court got it right 
when it balanced the issues here involved and the interest in 
potential fetal life, and the interests of the woman in her 
life, and her health, and her autonomy, and decided that 
abortion up to viability must be preserved. After viability it 
can be, in fact, banned, but with exceptions for women's life 
and health.
    Mr. Conyers. Well, would it----
    Ms. Smith. One interesting note. In Germany, for example, 
the courts there recognized a right of the fetus to life, but 
at the same time they recognized that the woman who carries 
that life in her uterus and carries it through, gestates it 
until it is fully developed, the woman has a greater right, 
and, thus, abortions are legal in Germany.
    Mr. Conyers. I want to thank you very much for your 
response to my questions, and thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman. And before 
going to our next Member, I want to make available for the 
record the following letters from other abortion survivors and 
a letter submitted to the written record by Americans United 
for Life. Without objection, these will be made a part of the 
record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              
                               
               __________
    Mr. Goodlatte. And I also want to clarify something that 
Ms. Smith said about the Energy and Commerce Committee. The 
report you referred to is a report of the minority of that 
Committee and is by no means reflective of the work of the 
majority of the Energy and Commerce Committee.
    Ms. Smith. Thank you for clarifying that.
    Mr. Conyers. Mr. Chairman----
    Ms. Smith. I just received it this morning, so.
    Mr. Conyers [continuing]. May I please introduce into the 
record the Planned Parenthood statement as well as the 
Leadership Conference on Civil Rights and Human Rights 
statement?
    Mr. Goodlatte. Without objection, those will be made a part 
of the record as well.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
             __________
    Mr. Goodlatte. And the Chair now recognizes the gentleman 
from Wisconsin, Mr. Sensenbrenner, for his questions.
    Mr. Sensenbrenner. Thank you very much. Ms. Smith, you have 
had a great deal of experience in litigating these questions, 
and could you please give the Committee your definition of what 
constitutes ``infanticide?"
    Ms. Smith. What constitutes, I am sorry? I did not hear 
you.
    Mr. Sensenbrenner. ``Infanticide.''
    Ms. Smith. ``Infanticide?'' I think infanticide is when a 
baby is killed, an infant.
    Mr. Sensenbrenner. Okay. Now, assuming that the baby is 
born following a botched abortion and is alive, do you think 
that either killing the baby by commission or killing the baby 
by omission is infanticide?
    Ms. Smith. I think I would have to do more research on the 
State laws and what----
    Mr. Sensenbrenner. Well, we have a Federal Born Alive Act, 
yeah.
    Ms. Smith. Yeah, there is a Federal Born Alive Act that 
requires, so I would say it was a violation of the Born Alive 
Infant Protection Act not to take actions to preserve the life 
of a viable child. But when you are talking about a pre-viable 
fetus, and let us remember that the----
    Mr. Sensenbrenner. No, I am talking about born alive. A 
pre-viable fetus is not born alive, and does not fall----
    Ms. Smith. Well, a pre-viable----
    Mr. Sensenbrenner [continuing]. Does not fall under this 
definition. Now, I guess what you are saying that both Ms. 
Jessen and Ms. Ohden, if there were not sufficiently concerned 
nurses that found them after the abortionists have not killed 
them during the delivery, the partial birth abortion delivery, 
then there would have a crime of infanticide simply by 
abandoning an alive baby, and not taking care of it. Am I 
correct in that?
    Ms. Smith. Well, that certainly would be a violation of the 
current Born Alive Infant Protection Act.
    Mr. Sensenbrenner. Okay. Well, that is what the law is now.
    Ms. Smith. Yes.
    Mr. Sensenbrenner. So I guess you are admitting that I am 
correct in this.
    Ms. Smith. I am saying that it would be a violation of the 
Born Alive Protection Act.
    Mr. Sensenbrenner. Okay, fine. I think you are right on 
that.
    Ms. Smith. Yes.
    Mr. Sensenbrenner. You and I agree on that.
    Ms. Smith. That that is the Federal law, yes.
    Mr. Sensenbrenner. Yes, that is the Federal law. Well then, 
how come abortionists do not follow the Federal law when they 
make a mistake and the baby is not killed prior to being born?
    Ms. Smith. To my knowledge, they do follow the Federal law.
    Mr. Sensenbrenner. Well, we have two examples sitting to 
your right and left of people where the law was not followed, 
and even----
    Ms. Smith. Well, the Born Alive Infant Protection Act was 
not in place when they were born, so.
    Mr. Sensenbrenner. I know it was not, but I started out by 
asking you to define ``infanticide,'' and there were murder 
laws that were on the books even before Born Alive.
    Ms. Smith. Yes. Most murder laws in the country require if 
a fetus is born alive, then it becomes a person. So then an act 
taken to, in fact, cause demise at that point would be murder 
in most States.
    Mr. Sensenbrenner. And if they did not do anything to save 
the child's life----
    Ms. Smith. An act of omission----
    Mr. Sensenbrenner [continuing]. Would it be manslaughter?
    Ms. Smith. I do not know if an act of omission would have 
qualified in those cases. I am not familiar with the old cases 
on that.
    Mr. Sensenbrenner. Okay.
    Ms. Smith. And I do not think that they were very common, 
so I think we would have heard a lot more about it if they 
were.
    Mr. Sensenbrenner. Okay.
    Ms. Smith. And certainly now----
    Mr. Sensenbrenner. Well, we would be hearing a lot about it 
when it happens now, and we have two witnesses who were born 
alive, you know----
    Ms. Smith. In the 1970's.
    Mr. Sensenbrenner. Infanticide laws were on the books in 
most States without the Born Alive Protection Act, and they are 
here. Now, I guess my question is, you are a lawyer. You have 
been advising Planned Parenthood.
    Ms. Smith. No, I have never actually advised them. I have 
never----
    Mr. Sensenbrenner. Well, you represented their interests 
before the Supreme Court of the United States.
    Ms. Smith. I actually did not. I was counsel for different 
plaintiffs in that case, but Planned Parenthood, they were a 
separate case, so.
    Mr. Sensenbrenner. Well, I am sure Planned Parenthood did 
not disagree with anything you said to the Court, right?
    Ms. Smith. Probably not.
    Mr. Sensenbrenner. Okay. Well, good, we will assume that.
    Ms. Smith. I hope not.
    Mr. Sensenbrenner. We will assume that for the sake of 
argument. Now, whether or not Planned Parenthood broke the law, 
when Congress sets budgeting priorities we have to decide what 
is important and what is not, and which has a higher priority 
and should be funded, and which has a lower priority and should 
not be funded in the age of a $19 trillion deficit.
    Ms. Smith. Right.
    Mr. Sensenbrenner. Now, could you please tell us why 
Planned Parenthood needs to get over a half a billion dollars 
of Federal funding every year when there are other pressing 
needs, such as feeding hungry children that maybe we should put 
that money into?
    Ms. Smith. Let us be clear that Planned Parenthood is not 
getting any Federal funding for abortion. What Planned 
Parenthood is----
    Mr. Sensenbrenner. Well, money is fungible, Ms. Smith. You 
and I know that money is fungible----
    Ms. Smith. I do not believe that----
    Mr. Sensenbrenner. So the question is whether Congress 
should appropriate another half billion dollars plus to Planned 
Parenthood when we could be spending that money on feeding 
hungry children. This is a question of priorities. I would like 
to know what your priority is----
    Ms. Smith. My priority----
    Mr. Sensenbrenner.--Planned Parenthood or feeding hungry 
children.
    Ms. Smith. My priority, I think funding Planned Parenthood 
and the services it provides is equal to feeding children 
because what Planned Parenthood does is preserve women's lives 
that are the mothers of those children. It provides 
contraception----
    Mr. Sensenbrenner. How can they be the mothers of the 
children when children are aborted through Planned Parenthood?
    Ms. Smith. Because many women go to Planned Parenthood who 
have children and have families. In fact, even women who are 
obtaining abortion, 60 percent of women obtaining abortions in 
this country already have at least one, if not more, children.
    Mr. Sensenbrenner. Okay.
    Ms. Smith. So women are often mothers----
    Mr. Sensenbrenner. I guess your priorities are different 
than mine.
    Ms. Smith. My priorities are funding Planned Parenthood's 
excellent high-quality, comprehensive healthcare services that 
go to low-income women throughout this country, women who 
otherwise would become pregnant unintendedly, and who would 
then need abortions. So I would think as somebody who opposes 
abortion, you would, in fact, support, as does Judge Kavanaugh 
of the D.C. Circuit, the funding of contraceptive services to 
reduce unintended pregnancies and to reduce the number of 
abortions. It is really a no-brainer. It makes no sense not to 
fund those services if you want to reduce the number of 
abortions.
    Mr. Sensenbrenner. Well, I do not think there is statistics 
that indicate that that is the case.
    Ms. Smith. There absolutely are.
    Mr. Sensenbrenner. I am way out of time, so I will yield 
back.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from New York, Mr. Nadler.
    Mr. Nadler. Mr. Chairman, first of all, before I begin my 5 
minutes, I ask unanimous consent to insert into the record a 
letter from 56 national faith-based and religious groups 
supporting Planned Parenthood.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
                 __________
    Mr. Nadler. Thank you, Mr. Chairman. Also before I start my 
statement, I simply want to say, I want to clarify, when the 
Born Alive Infant Protection Act, whatever we called it, was 
brought before this Committee, I surprised people by saying 
that I saw no point to opposing it, that it was a deliberate 
trap designed to entice pro-abortion groups into opposing it.
    It is already the law of the land against murder. Anyone 
who kills a child that has been born outside the womb, anyone 
who stands idly by and does not help it survive is guilty of 
murder or manslaughter, period, no questions asked, with or 
without the Born Alive Protection Act. And it was introduced 
simply to slander the abortion groups to say that pro-abortion 
people support infanticide. We do not obviously.
    Mr. Chairman, before I begin my questions, I would like to 
express my dismay at the title given to this hearing: ``Planned 
Parenthood Exposed: Examining the Horrific Abortion Practices 
of the Nation's Largest Abortion Provider.'' The title alone is 
enough to call this hearing a farce. It is wrong and should be 
beneath this Committee to state its conclusion without a shred 
of evidence and before we receive even a word of testimony.
    Perhaps the majority's conclusion explains why not a single 
representative from Planned Parenthood is here to testify about 
its practices. It may also explain why the Chairman has chosen 
to ignore the request from Ranking Members Conyers and Cummings 
to suspend these one-sided investigations until they include 
the so-called Center for Medical Progress, which made the 
videos about which we have heard today.
    Of course, if we really wanted to hear about the practices 
of Planned Parenthood, we could have hours of testimony on the 
compassionate, comprehensive, and affordable healthcare 
services they provide women and families, but the majority is 
not interested in hearing that testimony. If you clear away the 
partisan rhetoric, it appears the Chairman has called this 
hearing to examine how Planned Parenthood participates in fetal 
tissue donation, which Congress made illegal with almost 
unanimous bipartisan support in 1993.
    In the years since, fetal tissue and cells have been used 
to make groundbreaking medical discoveries. If you want to find 
a cure for diabetes, for stroke, or for hundreds of other life-
threatening illnesses, fetal tissues and cells are a necessary 
part of the research toolkit, and a moral part.
    The law surrounding fetal tissue donation are simple and 
clear. Planned Parenthood has consistently and clearly 
demonstrated that the affiliates who participate in fetal 
tissue research, which represent about 1 percent of all 700 
Planned Parenthood health centers in just two States, comply 
with these laws, just as they comply with thousands of other 
Federal, State, and local laws and regulations every single 
day.
    That should be the conclusion of this hearing, but instead 
before any inquiry, this Committee has already declared Planned 
Parenthood guilty and chosen to capitalize on the sensational, 
unsubstantiated smears made in a series of unethical, possibly 
illegal, videos. The goal here is clear: to smear Planned 
Parenthood. Senator Joseph McCarthy would be proud of this 
Committee today.
    Sadly, this is not the first time Congress has been drawn 
into this charade. Every time it follows the same pattern. 
Extremists try to entrap Planned Parenthood into unethical or 
illegal conduct, and then make sensationalist accusations. But 
in no time at all, the claims are debunked and the 
investigations find no wrongdoing. This pattern is being 
repeated here today.
    Mr. Bopp, I would like to walk through some of that history 
with you. Were you aware, Mr. Bopp, that in 2012, anti-abortion 
groups released videos claiming to show Planned Parenthood was 
conducting sex-elective abortions?
    Mr. Bopp. No.
    Mr. Nadler. You are under oath, Mr. Bopp.
    Mr. Bopp. I know what is in my mind, Congressman.
    Mr. Nadler. So you are not aware of that.
    Mr. Bopp. I was not aware of that.
    Mr. Nadler. Then you remarkably ignorant for someone in the 
field, and it was not true. Mr. Bopp, are you aware in 2011 
that anti-abortion groups released videos claiming to show 
Planned Parenthood condoned sex trafficking and statutory rape?
    Mr. Bopp. No.
    Mr. Nadler. You are still under oath. And following the 
release of those videos, Republicans in Congress tried to cut 
off funding for Planned Parenthood and nearly shut down the 
government. Are you aware of that?
    Mr. Bopp. I do not remember that they were connected in 
that way.
    Mr. Nadler. Okay. But you remember that the two things 
occurred.
    Mr. Bopp. You know, the older I get, the harder my memory--
--
    Mr. Nadler. I asked you a question. Do you remember----
    Mr. Bopp. I am trying to answer your question, Congressman.
    Mr. Nadler. Yes or no, do you remember or not?
    Mr. Bopp. I do not know what your question is.
    Mr. Nadler. Do you remember that following the release of 
those videos, Republicans in Congress tried to cut off funding 
for Planned Parenthood and nearly shut down the government?
    Mr. Bopp. I have answered that question.
    Mr. Nadler. Okay. And your answer was that the two things, 
that Congress tried to cut of funding for Planned Parenthood 
and that government was nearly shut down, and you do not 
remember if they were connected. Is that correct?
    Mr. Bopp. In that way, yes.
    Mr. Nadler. Thank you. But, of course, Planned Parenthood 
already reported the actors claiming to be sex traffickers to 
the FBI, so once again not true. The list goes on. In 2010, 
videos falsely claimed women were pressured into abortion, not 
true. In 2009, false claims about clinics avoiding parental 
consent, not true. In 2002, false claims about statutory rape, 
not true. And for a real sense of deja vu, in 2000 videos were 
released claiming Planned Parenthood was participating in 
illegal tissue sales. But, of course, when the man who made 
those videos came before Congress, he totally recanted his 
testimony, and an FBI investigation did not lead to any charges 
against Planned Parenthood. Again, not true.
    Mr. Bopp, were you aware of that hearing?
    Mr. Bopp. I do not recall it.
    Mr. Nadler. Okay. What is true is that the people who made 
these videos are liars in a long line of liars. It is true that 
if you had a shred of real evidence that Planned Parenthood is 
breaking the law, you would have taken it to a State or a 
Federal prosecutor right away, but you did not. Mr. Chairman, 
if you had even a bit of real confidence in the man who made 
these videos, you would have brought him here to testify before 
this Committee, but you did not, and you do not have that 
confidence.
    The fact is, this is all a farce designed to shame women 
for exercising their constitutional right to an abortion, to 
scare abortion providers into ending their services, and to 
eliminate options for women to access health services. This is 
all based on lies, knowingly based on lies. I hope the majority 
comes to its senses and realizes they have fallen into the same 
sad pattern of lies and lies that we have seen for more than a 
decade.
    I yield back my time.
    Mr. Franks [presiding]. The Chair recognizes Mr. Forbes 
from Virginia for 5 minutes.
    Mr. Forbes. I want to start, Mr. Bopp, by apologizing for 
anybody on this Committee calling any witness that comes before 
this Committee ``remarkably ignorant,'' and I apologize for 
that statement even though it was not made by us.
    I can understand the voices on the other side of this 
Committee who would say please do not look at the video. This 
not about the video. We do not want to talk about the acts in 
the video, kind of like the Wizard of Oz. Pay no attention to 
the man moving those levers behind there.
    What I cannot understand is that those same voices cannot 
say that there is no act that is too far, there is no act that 
is too brutal, there is no act that is not acceptable even for 
Planned Parenthood. And they want to talk about dollars. Ms. 
Ohden, if you are correct on the number of abortions, even 
though they do not report these numbers, based on the best 
evidence we have, you are talking about $147 million for 
abortions last year that are big dollars.
    And what just startles me is when I hear Mrs. Smith say, 
and I want to read this again. This is what the Chairman 
stated, this is Justice Kennedy's statements, not mine. He says 
this. He described at length the testimony provided by 
abortionist Leroy Carhart about the alternate D&E method or 
dismemberment procedure. This is what he said in Court.
    And Mrs. Smith does not say that is wrong. She does not say 
that is inaccurate. Here is what it says. ``The fetus can be 
alive at the beginning of the dismemberment process, and can 
survive for a time while its limbs are being torn off.''
    Dr. Carhart agreed that when you pull out a piece of the 
fetus, let us say an arm or a leg, and remove that at the time 
just prior to the removal of the portion of the fetus, the 
fetus is alive. Dr. Carhart has observed fetal heartbeat via 
ultrasound with extensive parts of the fetus removed, and 
testified that near dismemberment of a limb does not always 
cause death because he knows of a physician who removed the arm 
of a fetus, only to have the fetus go on to be born as a living 
child with one arm.
    At the conclusion of the D&E abortion, no intact fetus 
remains. In Dr. Carhart's words, ``The abortionist is left with 
a tray full of pieces.'' And then Justice Kennedy goes on in a 
Supreme Court case: ``The fetus in many cases dies just as a 
human adult or child would. It bleeds to death as it torn limb 
from limb.''
    And to say that you support a woman's right to choose is 
one thing. To say that you might want to give healthcare to 
people is another thing. But for anybody to say that procedure 
and what you just described is humane, that that does not go 
too far, that is not too brutal, that is humane and acceptable 
just defies my imagination. I could not imagine that happening 
to one of my pets, much less an unborn child.
    And then when I look, Ms. Smith, I know you state that you 
are an associate research scholar in law and senior fellow and 
director for Program for the Study of Reproductive Justice at 
Yale Law School. And I know you are here in your personal 
capacity today. But I just wondered, does Yale have any study 
for the rights of individuals like Ms. Jessen or Ms. Ohden to 
be born without cerebral palsy, because there was a lot of 
questions when Mr. Sensenbrenner was raising about those issues 
a while ago that are apparently unanswered. Are there any such 
studies up there that would dare suggest the right of one of 
these children not to be born with one arm?
    And, Mr. Chairman, and that is what just baffles me about 
this, not that we have disagreements, but that none of those 
voices in the crowd do not look at this act, do not look at 
this act, can find no point that is too far, no point that is 
too brutal, no point that is inhumane. And then they dare 
suggest that we are extreme.
    And with that, Mr. Chairman, I just thank you for this 
hearing and for our witnesses coming here today. Thank you for 
being here, and I yield back.
    Mr. Franks. Thank you, Mr. Forbes. The Chair recognizes Ms. 
Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Let me thank the Chairman for yielding and 
for allowing those with a great deal of emotion on this 
question to be able to project and present their views. I have 
lived through this Judiciary Committee for a period of years, 
to the witnesses, that I have been through eons of these 
hearings starting back in the 1990's on a medical procedure 
that saved the lives of women that were called the partial 
birth abortion.
    Let me say to the witnesses, I have the greatest respect 
for your viewpoint, and I am grateful for you being here, 
grateful for your life, and grateful for your passion. As an 
aside let me say that as a graduate of Yale, undergraduate, and 
being very familiar with Yale Law School, I know that the law 
school is one of the premiere teachers of the Constitution, and 
well recognizes the rights of all people. And I would venture 
to say that there are individuals with different thought from 
you, I would imagine, Professor Smith.
    Ms. Smith. Absolutely.
    Ms. Jackson Lee. And, therefore, to my colleague, yes, Yale 
Law School and Yale undergraduate schools produce individuals 
that have a great concern for the Constitution of this Nation.
    So let me begin my questioning and to ask Mr. Bopp, would 
you join in a request to the director of the National 
Institutes of Health to suggest convening an expert panel to 
re-look at, the expert panel, on fetal tissue research. Would 
you join in that request?
    Mr. Bopp. I have not considered that question.
    Ms. Jackson Lee. Well, would you? I am giving it to you 
now.
    Mr. Bopp. I am not prepared to testify under oath whether I 
agree with that or not.
    Ms. Jackson Lee. I am sorry. Pardon me? Do you think it is 
a good idea? If we have such a dispute here about fetal tissue 
research, would it be a good idea?
    Mr. Bopp. Well, I served on a panel that I thought fairly 
explored the issues that came to conclusions that I believe 
were not warranted, and that history has proven were 
fallacious.
    Ms. Jackson Lee. So you would not be interested in having a 
review.
    Mr. Bopp. I do not know what----
    Ms. Jackson Lee. I thank you for your answer.
    Mr. Bopp. I do not know what benefit it would be.
    Ms. Jackson Lee. I thank you for your answer. Let me say 
that Planned Parenthood complying with the Fetal Research 
Commission under President Reagan, you may have been one of 
those did not agree. But I would argue that the consensus came 
out and the panel found that it was an acceptable public policy 
to support transplant research with fetal tissue, and as well 
developed a guideline that said the research in question is 
intended to achieve significant medical goals.
    Professor Smith, is it not true, and this question has been 
asked again, but I think it should be asked over again, that 
out of this long journey of fetal tissue research, the impact 
in medicine has been overwhelming dealing with issues of polio, 
measles, rubella, or Rh disease. The use of fetal tissue cell 
lines has helped in vaccinations, normal human development in 
order to gain insight into birth defects and other 
developmental diseases. Has this come to your attention, 
Professor Smith, that fetal tissue research in the medical 
science has generated this kind of productivity?
    Ms. Smith. Absolutely.
    Ms. Jackson Lee. And in actuality, the proponent of these 
videos was actually trying to highlight the ugliness of what is 
misdirected, which is the harvesting of organs, which that was 
not the case.
    Let me ask you this question, Mr. Bopp. Are you aware of 
how Mr. Daleiden was able to engage in these false and 
misdirected, distorted, and maybe criminal videos? Do you know 
how he was able to do that?
    Mr. Bopp. I have been advised by the Committee staff that 
this hearing is not on that subject and I should not comment.
    Ms. Jackson Lee. Well, I am not sure how the Committee 
could staff could tell you it is not on that subject because 
the videos are all in the letters that have been sent by the 
three Republican chairs of the Committees that are engaged in 
it.
    So let me just say to you what he actually did. He stole--
stole--stole the identity of the president of the Feminist Club 
at Mr. Daleiden's high school. When he was asked to participate 
in a lawsuit, Mr. Daleiden invoked his Fifth Amendment right to 
refrain from self-incrimination in response to this lawsuit. 
That does not sound like a man who has any truth to stand on.
    Might I ask you, Professor Smith, if you would, the 
question was asked to you about whether or not Planned 
Parenthood does anything good with respect to women's health. 
Would you recite that again for me, that separate from the 
limited right to abortion under Roe v. Wade, do they not engage 
in women's health?
    Ms. Smith. Absolutely. The services that are supported by 
the Federal Government include contraceptive services, wellness 
exams, cancer screenings, STI testing, and STD treatment. And 
Planned Parenthood services millions of women. 1 in 5 women in 
this country has visited a Planned Parenthood clinic.
    It is a beloved institution not just by me, but by most 
Americans because it is one of the few accessible providers of 
excellent high-quality care outside of the abortion area in 
addition to the limited number of abortions they do.
    Ms. Jackson Lee. I would like----
    Mr. Issa. Regular order, please.
    Ms. Jackson Lee. I would like to put into the record, and I 
would ask that we not engage in this kind of Member attack. I 
am putting into the record state-by-state data that indicates 
that through the Planned Parenthood with respect to health and 
2 million patients, 371,000 pap tests and 451,000 breast exams. 
This is cervical and breast cancer screenings by Planned 
Parenthood to young women. Not young women, to women who 
otherwise would not be able to afford it. I ask unanimous 
consent for that to be submitted, and every Member's State is 
recorded here of helping these women get healthcare.
    Another I would like to put into the record from the Young 
Women From URGE, Unite for Reproductive Gender Equity, who have 
indicated that young people are less likely to have insurance 
and have low-paying jobs. I would like to submit this into the 
record.
    And finally, I would like to submit into the record from 
the Congressional Research Service the definition of ``fetal 
tissue,'' what is fetal tissue research, and the amazing 
miracles that have come about through fetal tissue research.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                     __________
    Ms. Jackson Lee. I am not here to push abortion. I am here 
to push life, and the respect for women, and the Roe v. Wade 
legality of what we do under the Hyde amendment. And I am not 
here to defund Planned Parenthood that has now been presented 
by Members of Congress----
    Mr. Issa. Regular order.
    Ms. Jackson Lee [continuing]. Members of Congress who 
really should be getting rid of sequester and not be stopping 
women from getting good healthcare. Please do not stop women 
from getting good healthcare. I am thankful for the Chairman's 
generosity, and I thank him so very much. And I yield back my 
time.
    Mr. Franks. I thank the gentlelady, and I now recognize Mr. 
Issa for 5 minutes.
    Mr. Issa. Wow, I would sure like to have the time she 
yielded back. Thank you, Mr. Chairman.
    The gentlelady from Texas cited the Hyde amendment, so I 
would like to take a moment. I served on this Committee and on 
Foreign Affairs with the late Henry Hyde, and I would like to 
take a moment to create a perspective for just a moment for 
this hearing because I think the hearing with Chairman Henry 
Hyde's portrait to your right looking down needs to be focused 
a little bit more on his legacy and a little bit less on what I 
hear perhaps on both sides of the aisle where we are having a 
discussion perhaps beyond the scope of our jurisdiction and 
beyond the scope of what I think the Chairman asked for.
    Many years ago Henry Hyde came to California, and no 
surprise, he was well known for his pro-life position, and the 
California Right to Life group asked if they could meet with 
him. We were together for another reason, and he said, sure.
    So we got together in a room of very strident, pro-life 
advocates in California, and they asked him about overturning 
Roe, and they asked him about every issue that you might 
expect. And Henry, more eloquently than I ever could, 
redirected the conversation to why he was pro-life and why it 
was so essential that Congress take a position.
    And what he said in my poor interpretation of Henry Hyde 
was that a Nation that does not provide respect for life is not 
a Nation that he or anyone else could be proud of; that the 
life of the unborn and the concern for their welfare, the life 
of the newborn, the life of the infirmed, and the life of the 
elderly all were issues which a civilized society had to 
promote. They had to promote it both publicly and privately.
    He never, as far as I know, supported broadly trying to 
reverse everything that was done, but he did stand for a 
question of will we treat people with respect. And I bring that 
up before asking questions because the questions from what I 
have seen in these videos, however obtained, seems to have a 
question of are these individuals, not the organization for a 
moment, these individuals. Do they have a respect for the 
sanctity of life?
    These are more than organs. These were the unborn who now 
are hopefully providing life to others so they may live or 
research. It is legal. It is part of the process. But there is 
a question about whether an organization and its employees are 
as efficient as they should be, effective as they should be, as 
good stewards of half a billion dollars of our money, and 
whether or not their conduct is conduct that is inappropriate 
for this organization to further allow.
    And I would like to leave it at that because I think the 
important thing for us to consider here today is with our half 
billion dollars every year under any President, including 
President Bush for all 8 years of his. Planned Parenthood 
receives a large block of money, more than any other 
organization of its type. Other organizations including clinics 
in my district receive similar money for similar outreach to 
help women and families. These are funds that the Congress has 
decided with your taxpayer dollars that we will appropriate and 
deliver for this purpose.
    So, Mr. Bopp, I know your long history in the pro-life 
movement, but I am going to ask you just one question. Assuming 
that this half billion dollars and other monies are going to be 
spent, should we not make sure that they are spent to the best 
steward of that money for the most effective support of women's 
health, and should we not take an interest in whether or not 
that organization and its employees are respectful and 
supportive of women's health and the quality of life for they 
and, in many cases, their children to be born, not just 
children not to be born. Thank you.
    Mr. Bopp. Yes, I think that is a proper role of Congress. I 
mean, after all, there are hundreds, maybe thousands of 
providers out there who, if the half billion was not given to 
Planned Parenthood, could receive those funds for these 
beneficial services that are not tainted by association with 
abortion, not tainted by their reckless practices in terms of 
procurement of fetal tissue.
    And, I think everybody would be a lot more comfortable with 
that, that resources would not be inadvertently diverted to 
support those activities, and its association would be 
terminated.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Mr. Franks. And I thank the gentleman, and would now 
recognize the gentleman from Tennessee, Mr. Cohen, for 5 
minutes.
    Mr. Cohen. Thank you. Ms. Smith, can you tell us what you 
think was incorrect in the portrayal in the videos of Planned 
Parenthood's activities and the use of fetal tissue and the 
price thereof?
    Mr. Bopp. Well, if I understand your question----
    Mr. Cohen. I said ``Ms. Smith.'' Thank you, Mr. Bopp.
    Mr. Bopp. Oh, I am sorry.
    Mr. Cohen. Yeah, I know you are getting older, and you do 
not hear, and you do not remember.
    Mr. Bopp. You are right.
    Mr. Cohen. Ms. Smith, thank you.
    Ms. Smith. It is hard for me to tell from the videos what 
is correct or incorrect because I am not familiar with Planned 
Parenthood's actual practices. I am not a lawyer for Planned 
Parenthood. What I believe happened according to the team of 
forensic experts and their report is that the video, things 
were edited out of context and made to look like they were 
actually negotiating, haggling, one of the Members put it, 
about the price as if they were selling body parts. And I do 
not think that is true. I do not think they were selling fetal 
tissue, so.
    Mr. Cohen. Does the law allow them to get reimbursed for 
the cost?
    Ms. Smith. Absolutely, the law allows them to get 
reimbursed. So the discussion of money was about reimbursement 
costs, and, in fact, even in the edited version, the official 
does say we are not in this for the profit, and I have to check 
and see what the reasonable costs are. I understand there were 
other statements that were edited out of that version that I 
have not seen.
    Mr. Cohen. Mr. Bopp, his comments made on some of the 
videos, he said that they raise considerable concerns that 
infants are born alive after an induced abortion at Planned 
Parenthood and then killed to harvest their tissue. This would 
be a violation of Federal law, I believe. What is your response 
to that, Ms. Smith?
    Ms. Smith. I did not see any evidence or hear anything 
about a violation of the Born Alive statute. If we are talking 
about pre-viable fetuses, I do not see any violation at all.
    Mr. Cohen. And Mr. Bopp has raised concerns that fetal 
tissue research may be an incentive for women to obtain an 
abortion, which she might otherwise might be conflicted and not 
do so. Can you even make a comment on such a convoluted 
statement?
    Ms. Smith. Well, I know a number of women who have gone 
through the process of deciding whether to have an abortion, 
and fetal tissue donation does not seem to me to be something 
that would enter into their decision making on that issue 
itself. So I cannot imagine that that is happening.
    Also I understand consent and the decision to make the 
abortion to be happening at a time separate from a discussion 
about whether given the fact that one has decided to have an 
abortion, would one like to contribute to the enormous health 
and lifesaving benefits that can come from fetal tissue, those 
two decisions are being made separately. And I think the 1988 
report recommends that, and I think that is appropriate. And it 
seems to me that that is happening.
    Mr. Cohen. You have already commented, but I would like to 
hear it again about some of the research being done with the 
use of fetal tissue to protect people and save people's lives 
in the future, and maybe find cures and treatments.
    Ms. Smith. Yes, it is contributing, and there was a recent 
indication from the NIH about this, about the importance of 
fetal tissue research to many new treatment areas, including 
diabetes, common diseases like diabetes, and uncommon ones like 
ALS or Lou Gehrig's disease, and other diseases that we know 
little about--Alzheimer's, Parkinson's. And there are some 
promising new treatments in those areas.
    Mr. Cohen. As an individual who had polio, and you 
mentioned that polio was----
    Ms. Smith. Yes, the early polio vaccines came from fetal 
cell line research, I believe.
    Mr. Cohen. I appreciate what fetal tissue can do. 
Alzheimer's is an issue that is very important to many in 
America because so many Americans are going to suffer from it, 
and it costs us so much at our budget, let alone losing our 
loved ones, and this is research.
    Ms. Smith. Let me say I do think it is important that we 
are concerned about consent, and that consent is properly 
obtained from the woman, and that as the Committee represented 
in 1988 or recommended in 1988, that the decision to donate be 
made at a time after one has already decided whether or not to 
have an abortion. I think that is a very appropriate safeguard 
against incentivizing abortion somehow.
    I find it difficult to think that this would change a 
woman's mind about having an abortion. Women make decisions to 
have an abortion for all kinds of reasons. This does not seem 
to me to be one of them. It would be something that one would 
decide only after one had made the actual decision.
    Mr. Cohen. Thank you, Ms. Smith. I yield back the balance.
    Mr. Franks. I thank the gentleman. I will now recognize 
myself for 5 minutes for questions.
    There is a lot of focus here by certain Committee Members 
related to just the fetal tissue portions of it as to the 
legality or is it for sale, a lot of that. But one thing that 
is pretty clear. If you look at the videos, you do see that 
these little body parts represented what once was a living, 
feeling human child, and that when they came into Planned 
Parenthood, they were living, human little children, and they 
died a brutal death while they were there. And we cannot avoid 
that reality.
    With all of the subterfuge, and the distortion, and trying 
to do the bait and switch tactic, do not forget that these were 
once little babies that were killed at the hands of Planned 
Parenthood.
    In the first video released by Center for Medical Progress, 
Mr. Bopp, Dr. Nucatola, senior director of Medical Services at 
Planned Parenthood, described the factor of intent as playing 
an important role in an abortionist use of the abortion method. 
She said, ``The Federal abortion ban is a law, and laws are up 
to interpretation.'' So there are some people who interpret it 
as intent. So if I say on day one I do not intend to do this, 
what ultimately happens does not matter because I did not 
intend to do this on day one, so I am complying with the law.
    So I ask you two questions. First of all, do you believe 
Dr. Nucatola's reliance on intent as she described it 
represents a valid legal approach? And secondly, what would 
change if we had the Pain Capable Unborn Child Protection Act 
on the books here at the moment?
    Mr. Bopp. Well, I think she was referring to the issue of 
partial birth abortion, and it has been the dodge by the pro-
abortion side that that law is only violated if you intend at 
the very beginning to have a birth partially delivered of a 
live child, and then killing the child, and then completing the 
delivery, that that is the process that you intended at the 
beginning.
    However, the law does not work like that. The intent 
applies to each of those actions; that is, for instance, the 
intent to kill the child once the child is partially delivered, 
not whether this complete process was intended in the first 
instance. Secondly, the Pain Capable Unborn Child Protection 
Act that was passed by this House of Representatives, there is 
certainly a potential that some of the children who are born 
intact and potentially alive are produced at that period of 
time in which that act would prevent that sort of activity. As 
a result it could have an impact on obtaining fetal tissue in 
those instances.
    Mr. Franks. Well, thank you, sir. Ms. Smith, I will turn to 
you. When you were asked to define ``infanticide,'' your own 
words were, ``It is when a baby or infant is killed.'' The Born 
Alive Infants Protection Act of 2002 clarifies that infants who 
were born alive during abortion or attempted abortion are 
afforded all legal protections enjoyed by other persons in the 
United States.
    Ms. Smith. Yes.
    Mr. Franks. Please tell me if you would support amendments 
to the Federal Born Alive Infants Protection Act to protect 
infants born alive infants into these incredibly vulnerable 
circumstances by providing a requirement that abortion 
providers or their staff immediately call 9-1-1 for an 
emergency transfer to a hospital of these infants born alive at 
the clinic, and to also provide criminal penalties, including 
prison time and fines for physicians and medical professionals 
who do not provide medically-appropriate and reasonable care to 
a born alive infant.
    Ms. Smith. If you are talking about a viable fetus that is 
born alive----
    Mr. Franks. I am talking about born alive.
    Ms. Smith. A viable fetus.
    Mr. Franks. I am talking about born alive.
    Ms. Smith. Okay. So you are saying pre-viable.
    Mr. Franks. I am talking about born alive.
    Ms. Smith. Pre-viable.
    Mr. Franks. I am talking born alive. I do not know what you 
do not understand.
    Ms. Smith. We are talking about cross-purposes.
    Mr. Franks. We are talking about a child who is born and is 
alive. Is that hard to understand?
    Ms. Smith. That is not hard to understand, but the question 
is it a viable fetus. If it is not viable, nothing will save 
it.
    Mr. Franks. So viability transcends being born alive?
    Ms. Smith. Like the Supreme Court, I believe that the 
proper line we draw is at viability, yes, because if you call 
9-1-1----
    Mr. Franks. So whatever that legal term ``viability'' is, 
if the child can do ballet, if they have not achieved that 
viability thing, then even though they are born alive, then all 
of a sudden that transcends the whole question?
    Let me ask it again. For a child born alive--born alive--a 
child born alive--that means breathing, moving around, born 
alive child--do you think that we should have some amendments 
to our Infants Born Alive Child Protection Act to require that 
9-1-1 be called to provide a transfer to a hospital, this 
infant born alive, and provide criminal penalties, including 
prison time and fines, for those physicians or medical 
professionals who do not provide medically-appropriate and 
reasonable care to a born alive infant?
    Ms. Smith. I think our law already protects born alive 
infants.
    Mr. Franks. So you are not going to answer the question.
    Ms. Smith. I am answering your question. Calling 9-1-1 for 
a 13-week----
    Mr. Franks. All right. Let me get more specific here then. 
If a child is born, let us say, at 5 months. We will be 
specific, 5 months.
    Ms. Smith. Five months, okay.
    Mr. Franks. Five months, and the child is born alive, 
should that child then be afforded protection after they are 
born alive?
    Ms. Smith. Yes, because I think----
    Mr. Franks. Okay, but not if it is 5 minutes earlier before 
they move----
    Ms. Smith. [continuing]. I think you are getting close to 
viability.
    Mr. Franks [continuing]. Down the birth canal, they are not 
afforded protection, correct?
    Ms. Smith. Sorry?
    Mr. Franks. In other words, if they are born alive at 5 
months, they deserve the protection, correct? That is what you 
just said.
    Ms. Smith. If they are a viable fetus, yes, absolutely.
    Mr. Franks. No, you did not say that. You said that they 
should be protected if they are born alive. Now, if you have 
changed your mind, that is fine. You can tell us.
    Ms. Smith. No, I did not change my mind. I think you are 
confusing me. So if it is born alive and you have a viable 
fetus, they deserve protection. Yes, they are protected under 
the----
    Mr. Franks. But if they are born alive and somebody says--
--
    Ms. Smith. [continuing]. Born Alive Infant Protection Act. 
They are already protected.
    Mr. Franks [continuing]. Somebody arbitrarily says they are 
not viable, then they are not protectable.
    Ms. Smith. If they are not viable, they will not survive, 
and so whether you have a Federal law to call 9-1-1 or not, I 
do not think will protect them.
    Mr. Franks. Well, how do you know if it is viable without 
medical professionals? I mean, how do you know? What is----
    Ms. Smith. Well, I am a doctor, but doctors know how to 
evaluate viability.
    Mr. Franks. So, but what you are saying is that the child 
that is born alive then is subject to whatever the doctor says, 
well, this child is viable, this child is not, so we will 
decide to let this one live, or we will transfer this one for 
medical care, but not this one.
    Ms. Smith. Well, some fetuses are viable and some fetuses 
are not.
    Mr. Franks. See, that is the schizophrenia of all of this, 
Mrs. Smith, is that--Ms. Smith, I am sorry.
    Ms. Smith. You should be asking a doctor the questions 
about how to determine viability protocol.
    Mr. Franks. Well, but my question to you----
    Ms. Smith. I am giving you the legal defense definition.
    Mr. Franks. My question to you----
    Ms. Smith. Yes?
    Mr. Franks. My question to you was if the child is born 
alive at 5 months, should they be protected, and you are having 
difficulty answering that question, and I understand. I would 
have difficulty in your position, too.
    Ms. Smith. Well, because 5 months, I am not sure how many 
weeks that is, and also it depends on whether the fetus is 
viable. Some fetuses are never viable.
    Mr. Franks. Right, whether they are alive or not is the 
issue. It is whether they are viable. I understand. I would 
like to understand.
    Ms. Smith. Some fetuses never are viable. At 30 weeks they 
cannot have a brain, they are not viable, they are not going to 
live. Would you provide aid and comfort? Yes, I think you do.
    Mr. Franks. Yes, providing----
    Ms. Smith. But that fetus is going to die.
    Mr. Franks. Provide appropriate and reasonable care.
    Ms. Smith. Yes.
    Mr. Franks. That is what we should do.
    Ms. Smith. Yes.
    Mr. Franks. All right. With that, I will now yield to Mr. 
King for 5 minutes. I apologize. I will recognize Mr. Johnson 
for 5 minutes.
    Mr. Johnson. Well, thank you, Mr. Chairman. This hearing 
has all of the hallmarks of a Third World 4th rate Nation show 
trial. The objective of the hearing is to highlight for my 
friends on the other side of the aisle or to make the case for 
defunding Planned Parenthood. The reason being or the stated 
reason that they give it is an abortion provider, and it has 
got horrific things that it does to effectuate abortion. And 
so, therefore, we should have a defunding of Planned 
Parenthood. That is what this hearing is all about.
    I call it a ``show trial'' kind of hearing because the 
accuser is not present, the Center for Medical Progress. They 
are not present, neither is the accused, Planned Parenthood. 
And so, what we have at a crucial moment in the affairs of the 
Nation, we are coming up on September the 30th, which is the 
end of the Fiscal Year. We are not talking about funding 
government operations past September 30th. We are talking about 
abortion and defunding Planned Parenthood instead.
    And we have got only 7 legislative days left in this month 
to put together a budget so that this country can continue to 
operate past September 30. And indeed we are careening toward a 
government shutdown on the issue that is being addressed here 
today, and it is a show trial. A lot of people are scoring 
political points.
    I will note that on this Committee, only one female on the 
other side of the aisle. That is pathetic. The voices that are 
being heard are male voices from the other side of the aisle 
that want to continue the attack on women's reproductive 
health. That is what this is all about. It is nothing new. It 
is a continuation of a mission that the other side has been on 
since it has been in power here in Congress, and it is a shame 
that it is engaging in show trials.
    Let me ask this question, Mr. Bopp. Outside forensic 
investigators have determined that the released Center for 
Medical Progress videos have been heavily edited. Transcripts 
released from the Center for Medical Progress videos also 
include words and phrases omitted from the released videos. Mr. 
Bopp, were you involved in the production of these videos?
    Mr. Bopp. I am advised by the Committee staff that this is 
not the subject of this hearing.
    Mr. Johnson. Well, no, I am asking the question. Were you 
involved in the production of the CMP videos, yes or no?
    Mr. Bopp. If the Chairman permits me, I will answer the 
question.
    Mr. Franks. If the gentleman would like to answer the 
question he can, but he is not obligated.
    Mr. Bopp. No.
    Mr. Johnson. You were not involved, and you were not 
present at the time these videos were being shot, were you?
    Mr. Franks. The gentleman is not obligated, but he is 
certainly welcome to answer the question.
    Mr. Bopp. No.
    Mr. Johnson. And you have not seen these videos in their 
unedited entirety, have you?
    Mr. Bopp. No.
    Mr. Johnson. And so, based on your answers, you are telling 
us that you are here to testify about a series of videos that 
you cannot confirm whether or not they were accurate or not.
    Mr. Bopp. Yes, and this is the old----
    Mr. Johnson. Yes or no?
    Mr. Bopp. No, I am not answering ``yes'' or ``no.''
    Mr. Johnson. You are not? Okay.
    Mr. Bopp. No, because I----
    Mr. Johnson. Well, I will tell you what then----
    Mr. Bopp. This is the old----
    Mr. Johnson [continuing]. If you do not want to answer the 
question, I have got questions for other----
    Mr. Bopp. I said not ``yes'' or ``no.''
    Mr. Johnson. I have got questions for other witnesses, so I 
am not going to argue with you.
    Mr. Franks. Let the witness answer the question----
    Mr. Bopp. Do not trust your lying eyes, right, Congressman?
    Mr. Johnson. Well, I mean, you are testifying, sir, to 
videos that you do not know whether or not they are accurate.
    Mr. Bopp. I have seen the videos.
    Mr. Johnson. You have seen the videos, but you have not 
seen the unedited videos, correct?
    Mr. Bopp. That is correct.
    Mr. Johnson. And so, therefore, you want this----
    Mr. Bopp. And many of the statements----
    Mr. Johnson. You want this Committee to accept your 
opinions about some edited videos that you--this is a show 
trial, Mr. Chairman.
    Mr. Bopp. I am testifying based upon the video.
    Mr. Johnson. You are not testifying on unedited videos. You 
are testifying based on edited videos.
    Mr. Franks. Just for my clarity, has the gentleman seen all 
the unedited videos himself?
    Mr. Johnson. No, I have not. [Laughter.]
    Mr. Bopp. But, of course, he still tries----
    Mr. Johnson. I have not even seen the edited videos, but my 
question to this witness is about his ability to come up here 
and testify in a way that people can accept his testimony with 
any credibility or not. And I would venture to conclude that 
your testimony is pretty worthless here.
    But let me ask you this question, Mr. Bopp. You are a 
strong proponent of the death penalty, are you not?
    Mr. Bopp. I am a supporter of the death penalty in certain 
circumstances.
    Mr. Johnson. And what about you, Ms. Jessen? Do you support 
the death penalty also?
    Ms. Jessen: In certain circumstances.
    Mr. Johnson. Okay. And, Ms. Ohden, do you----
    Ms. Ohden. No, I am not.
    Mr. Johnson. You do not support the death penalty?
    Ms. Ohden. No, I do not.
    Mr. Johnson. Well, I gave you an A for consistency.
    Ms. Ohden. Thank you.
    Mr. Johnson. You are welcome. And with that, I will yield 
back the balance of my time.
    Mr. Franks. I will now recognize the gentleman from Ohio--I 
am sorry--Iowa. Boy, I have got to get that right. Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman, and I thank the 
witnesses for coming forward here today and delivering your 
testimony. And I know that sometimes reliving these things is a 
heavy burden, and I am always impressed when we have witnesses 
that can deliver that message from the head and the heart from 
direct experience.
    I was listening to the gentleman from Georgia, and some of 
this does not quite fit up with my world view you might not be 
surprised to learn. But I notice that, Ms. Smith, he did not 
ask you your position on the death penalty, so I would give you 
an opportunity to tell us.
    Ms. Smith. I am against the death penalty.
    Mr. King. You are opposed to the death.
    Ms. Smith. Yes, I am.
    Mr. King. Was it your earlier testimony, though, that 
dismemberment of babies is not necessarily an inhumane way for 
those babies to die?
    Ms. Smith. You are using the word ``baby.'' My definition 
of ``baby'' is a baby that is born. So if you are talking about 
fetuses, if you are talking about----
    Mr. King. But you acknowledge that testimony even though--
--
    Ms. Smith. I support D&E abortion----
    Mr. King. And you would not assert it is inhumane----
    Ms. Smith [continuing]. The safest procedure.
    Mr. King [continuing]. To dismember this unborn baby.
    Ms. Smith. I am sorry, say it again.
    Mr. King. You would not assert that it is inhumane to 
dismember an unborn baby.
    Ms. Smith. I would not say it that way. I would say it is 
not inhumane to perform a D&E abortion on a pre-viable fetus, 
absolutely.
    Mr. King. A pre-viable fetus would be an unborn baby, would 
they not? We are back to that.
    Ms. Smith. Well, I do not think----
    Mr. King. Excuse me. I will just stop this exchange because 
you went through this with Chairman Franks----
    Ms. Smith [continuing]. The disagreement we have, yeah.
    Mr. King [continuing]. And I think we have resolved that.
    Ms. Smith. That is a disagreement we have.
    Mr. King. You have your language, and you are sticking to 
it.
    Ms. Smith. Yes.
    Mr. King. And if anybody uses any other kind of term that 
describes it any differently, you would object to that.
    Ms. Smith. No, I just want to know what you mean by it. If 
you tell me what you mean by it, I will answer it.
    Mr. King. So let me ask you another question then since we 
have established where you are on this with many years of 
practice, and it is do you recall when it hit the news a few 
years ago that Red China, the Chinese, would bring criminals up 
on capital charges, and through due process, the Red Chinese 
due process, convict them of a capital crime, sentence them to 
execution, and on their way to execution, harvest their organs 
and use those organs in medical practices in China. Do you 
recall that?
    Ms. Smith. No.
    Mr. King. Well, it happened.
    Ms. Smith. I believe you, but I was not----
    Mr. King. Okay. It does happen, and I recall that America 
was appalled by the idea that a heartless, barbaric 
civilization like the Red Chinese would sentence someone to 
death under their version of due process roll them through the 
operating room on the gurney and harvest their organs: their 
kidneys, their hearts, their livers, their pancreas, whatever 
it is that they thought they could utilize at the time. And 
that was, I will say, the harvest of the execution.
    We were appalled at the immorality of executing someone and 
harvesting their organs. Does that appall you, Ms. Smith?
    Ms. Smith. Yes, absolutely.
    Mr. King. Yeah, I thought it might, and it appalls me.
    Ms. Smith. I am glad we agree.
    Mr. King. But I wonder what the Chinese might think of the 
United States of America to be borrowing a half a billion 
dollars from the Chinese, send that money over to Planned 
Parenthood. That money that gets flowed through their system, 
ends up being utilized however Planned Parenthood decides, but 
we are helping to fund an organization that is dismembering 
babies, harvesting their organs, and selling those organs on 
the market. And we heard them negotiating for the price on the 
market, along with the methodologies that would be used in 
order to harvest more organs.
    Now, I wonder, and I would ask you, what do you think the 
Chinese think of us if we are critical of them for harvesting 
organs from someone who has gone through due process and 
sentenced to death?
    Ms. Smith. I have no idea what the Chinese think of us, but 
I do think that the Supreme Court got it right when it 
recognized that the State has an interest in the developing and 
potential life of the fetus and growth with time.
    Mr. King. I would agree with that, and my clock is running, 
so I appreciate you saying so. And I turn to Mr. Bopp and ask 
you that same question, Mr. Bopp. Have you heard of the 
practice in China of harvesting organs? Have you 
philosophically compared the two methodologies and what the 
Chinese might think of us?
    Mr. Bopp. Yes, I am familiar with those allegations, and, 
of course, the Chinese are using the same utilitarian 
calculation that the abortion advocates here are using to 
justify the abuses that have been documented regarding 
collection of fetal tissue such as Professor Smith. Well, the 
person is not viable, so, therefore, you can kill it at will. 
Well, the prisoner convicted of a capital punishment on the way 
to being executed is clearly not viable. ``Viable'' means the 
ability for long-term survival.
    So in their calculation, the way they treat human beings or 
do not respect human beings, then it would be perfectly 
appropriate to do what the Chinese are doing.
    Mr. King. If I could just tie this loop together, Mr. 
Chairman, is that the United States, at least virtually, the 
United States is virtually borrowing a half a billion dollars 
from China and funneling that money through to Planned 
Parenthood. The fungible budget of Planned Parenthood I will 
say is being used to commit abortion that are dismembering 
babies and selling their organs on the open market by the 
evidence we have seen before our very eyes.
    I do not need an investigation to understand what is going 
here. I hold those truths to be self-evident when I saw the 
video. And so, this Congress really, we are informing the 
public by this hearing, but the Justice Department needs to 
investigate and act, and if they see what I have seen by 
watching the videos, I believe that brings about prosecutions 
and eventually convictions. And I call upon the Justice 
Department, do your job.
    You have testified here before this Committee that you are 
independent branch of the government that is not directed by 
the President. The President stood on the floor of the Illinois 
State Senate and said a woman who wants an abortion has a right 
to a dead baby. I am saying there is nobody in this United 
States of America that should be compelled to pay taxes that 
are going to pay the interest on the debt to China so that 
something like this can happen.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Franks. And I thank the gentleman, and I would now 
recognize Ms. Chu for 5 minutes.
    Ms. Chu. Mr. Chair, I am outraged by the sensational nature 
of this hearing that makes no pretense of being fair or 
impartial. And I am outraged by the accusations made against an 
organization that serves millions of women in our country. In 
fact, 1 in 5 American women visit Planned Parenthood center for 
healthcare at some point in their lives. For some it is the 
only place that they can turn to for even the most basic of 
care.
    When our economy fell into tough times a few years ago, 
women, especially low-income women, turned to Planned 
Parenthood for affordable and dependable primary care services. 
They fill a vital gap that community health centers cannot fill 
by themselves. The local affiliate in my district, Planned 
Parenthood Pasadena in San Gabriel Valley, was one of the 
targets of these videos. The Center for Medical Progress tried 
to discredit them with their heavily edited videos.
    These five short videos, the ones that have been released 
by CMP, have at least 47 splices where content is edited out, 
but the conversation appears to be seamless. Critical context 
is omitted, including Planned Parenthood staff members 
repeatedly saying that there is no profit from tissue donation 
and should not be, that tissue donation programs must follow 
the law, and that substantial changes to medical procedures 
would not occur.
    And we know from the longer version of the first video that 
Dr. Nucatola said at least 10 times that Planned Parenthood 
affiliates do not profit from fetal tissue donation, making 
statements such as, ``Affiliates are not looking to make money 
by doing this. They're looking to serve their patients and just 
make it not impact their bottom line.'' Yet none of the highly 
relevant and exculpatory passages were included in the edited 
versions' excerpts that CMP initially released to the national 
media.
    And yet, my four affiliates in my local area served over 
27,000 women last year alone and saw over 51,500 patients. They 
did thousands of well women exams, breast exams, tests to 
determine sexually transmitted diseases, and cervical cancer 
screenings. By doing this, they saved lives. The leading 
questions in these videos do not lead to these numbers. 
Instead, the questions lead to a discussion about a legal fetal 
tissue donation program that affiliates do not even participate 
in for the most part. And so, along with my constituents, I am 
calling out these videos for what they are, the latest attacks 
on women's access to reproductive healthcare.
    Now, Republicans are saying that we do not want to see the 
videos, but the truth is the opposite. We want to see the whole 
video, not a selectively edited version. And, in fact, that is 
why I along with 11 of my colleagues sent a letter to Chairman 
Goodlatte today saying that the full footage must be made 
available to us and the public. Only then can there be a fair 
and complete investigation. And, in fact, without the full 
unedited source footage, it is impossible for there to be a 
thorough and transparent congressional investigation.
    And so, Professor Smith.
    Ms. Smith. Yes?
    Ms. Chu. Would videos like these have any evidentiary 
value? In other words, should we rely on these videos in our 
own investigations? And do you believe that the public would 
benefit from CMP releasing the full footage?
    Ms. Smith. Absolutely. I think CMP should be required to 
release the full footage. The edited versions would not have 
evidentiary value precisely for the reasons you have stated 
because words are taken out of context and placed over each 
other, out of time, the way sometimes world leaders are made to 
appear to be singing pop songs. It is that kind of technique 
that is used on the internet quite often, and it is used here 
in these videos. And it is just as unreliable.
    Ms. Chu. And, Professor Smith, you talked about that 
research panel that determined the ethics of fetal tissue 
donation, that 21 people were appointed to this commission and 
support the idea of fetal research. Can you speak about some of 
the safeguards that the commission and what lawmakers put in 
place to ensure no wrongdoing, and do you believe these 
safeguards are working?
    Ms. Smith. Yes, I do. As far as I can tell, the safeguards 
appear to be working. The fetal tissue is not allowed to be 
sold. Women have consented to the abortion separately from the 
consent to donate tissue, so the incentive for the main actors 
in these situations, it is not pushing abortion in any way. It 
is not manipulating people or coercing their choice. And those 
are all the things and factors that I would hope would be in 
place.
    To the extent the Committee continues to have concerns 
about that and the public continues to have concerns about 
whether this is being implemented properly, I think the 
appropriate response is another commission to address the 
issues and to investigate the issue.
    Ms. Chu. Thank you. Mr. Chair, I would like to enter into 
the record two letters. The first is a letter from 11 Latino 
organizations in support of Planned Parenthood of America. The 
second is a letter from Planned Parenthood to the National 
Institutes of Health on fetal tissue donation and medical 
research.
    Mr. Franks. Without objection.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               
                   __________
    Mr. Cicilline. Mr. Chairman, a parliamentary inquiry?
    Mr. Franks. The gentleman will state his inquiry.
    Mr. Cicilline. Mr. Chairman, I would like to know whether 
or not the majority is currently in possession of the unedited 
videos that are at issue in this hearing.
    Mr. Franks. I was going to address that. The unedited full 
footage of these videos is online, and all you have to do--is 
that incorrect? The CMP has stated that they released it online 
weeks ago.
    Mr. Cicilline. Mr. Chairman----
    Mr. Franks. And so, the point is I would only hope that my 
friends on the minority would actually look at them.
    Mr. Cicilline. No, Mr. Chairman, I believe those are the 
edited versions of these videos.
    Ms. Smith. There are two things. There are short videos 
that are heavily edited, and then there are what the CMP has 
called full footage videos which themselves have also been 
edited. This is in the forensic analysis report that was 
submitted to the Committee. So nobody that we know of has seen 
the actual full footage videos. There is a short version and a 
long version.
    Mr. Cicilline. That is my point of parliamentary inquiry, 
Mr. Chairman, that the majority on this Committee is, in fact, 
in possession of the full unedited videos that are at issue in 
this hearing.
    Mr. Franks. The answer is, no, that we are not. But I would 
suggest to you that we are in possession of enough of it to 
indicate that living human viable babies are being murdered at 
Planned Parenthood, and their body parts are being harvested.
    Mr. Cicilline. Point of parliamentary inquiry, Mr. 
Chairman? Point of parliamentary inquiry?
    Mr. Franks. One more.
    Mr. Cicilline. Has the majority received videos from this 
organization?
    Mr. Franks. We have looked at the ones available to 
everyone else online. We have not received anything directly 
from the organization.
    Mr. Cicilline. Point of parliamentary inquiry. Has the 
majority----
    Mr. Franks. I am going to move on, sir.
    Mr. Cicilline. Has the majority communicated with this 
organization and sought copies of unedited versions of these 
videos?
    Mr. Franks. The answer is that we have not received any 
additional footage from CMP, and with that I am going to move 
on.
    Mr. Cicilline. Mr. Chairman, that was not my inquiry. My 
parliamentary inquiry is whether or not the majority----
    Mr. Franks. I recognize the gentleman from Texas for 5 
minutes.
    Mr. Cicilline. Point of parliamentary inquiry. Mr. 
Chairman, my inquiry is has the majority communicated with CMP 
in an effort to obtain copies of unedited videos or in 
connection with the ongoing investigation of CMP with respect 
to these videos.
    Mr. Franks. They are not in Committee records at this time, 
and we have made no formal request for that.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Franks. And with that, I will recognize the gentleman 
from Texas for 5 minutes for his questions.
    Mr. Poe. I thank the Chairman. It seems to me this hearing 
is not whether there is a crime that has been committed or not. 
That is a, I think, a decision for the Department of Justice to 
determine later, even though my friend from Georgia acted as a 
defense lawyer defending someone that has not been charged in 
his entire questioning. The issue is whether or not taxpayers 
should fund Planned Parenthood. That is the issue that is 
before this Committee today. This is just my opinion, the name 
is sort of interesting, ``Planned Parenthood.'' Maybe it should 
be ``planned non-parenthood'' as opposed to ``Planned 
Parenthood,'' but that is just my personal opinion.
    We talk about women and all of this. I am going to ask the 
ladies on the far left and the far right at the table, and 
maybe Ms. Smith in the middle, some questions. Ms. Ohden, just 
your opinion, is there any reason taxpayers should fund Planned 
Parenthood? Are there other options where women can receive 
women's healthcare?
    Ms. Ohden. Correct. I do not have the statistics right in 
front of me, but your own State is funding women's health at a 
higher level at the State level. I was reading something 
yesterday that there is more funding than there had been in the 
past. Despite the restrictions that have been placed on 
abortion facilities through different measures.
    So I think that is a great example that we know that the 
State of Texas is still funding women's health services at an 
all-time high level. I apologize that I do not have that 
specific information, but I was just reading it on the plane 
last night.
    And I have to just say as a woman who survived an abortion, 
there is something wrong when healthcare, and women's needs, 
and women's empowerment is based on someone's life ending.
    Ms. Jessen. Absolutely.
    Mr. Poe. Thank you. My understanding is there is 732 
federally-qualified health centers in Texas, and there are 38 
Planned Parenthood centers in Texas. The issue about the videos 
and was it edited, and was it not edited, that seems to be the 
discussion in Congress on multiple things. Do we have the full 
video? Do we have all of the emails? Do we have the side deals 
with the Iranian nuclear agreement? We always seem to be 
missing something when we want to make a decision. And here we 
are wanting the full videos. I think that will all play out.
    But the issue is whether or not there should be Federal 
funds for Planned Non-Parenthood. Ms. Jessen. Is it Jessen?
    Ms. Jessen. Yes.
    Mr. Poe. Tell me a little bit about your knowledge of 
Planned Parenthood, I mean, based on your background and your 
life experiences. You do not have to go into those, but 
Margaret Sanger, or Planned Parenthood, what do you know about 
them?
    Ms. Jessen. Well, my biological mother went to a Planned 
Parenthood, and they advised her to have a saline abortion. So 
Planned Parenthood has had an enormous impact on my life. I 
have the gift of cerebral palsy as the direct result of a lack 
of oxygen to my brain from that procedure.
    Margaret Sanger was quite an individual. She said, if I 
may----
    Mr. Poe. You may.
    Ms. Jessen [continuing]. Reread this quote that I quoted 
her earlier. She said, ``The most merciful thing that a large 
family does to one of its infant members is to kill it,'' and 
that is the woman that began this organization.
    Mr. Poe. Do you have a problem with statues of her in 
different prominent places in America?
    Ms. Jessen. A little bit, yeah.
    Mr. Poe. I mean, do you or not?
    Ms. Jessen. Yes.
    Mr. Poe. Do you think that, just your opinion based on your 
life experiences, and I value you a great deal.
    Ms. Jessen. Thank you.
    Mr. Poe. Do you think that the taxpayers should fund 
Planned Parenthood, an organization that does harvest, if we 
can use the term, body parts of the unborn?
    Ms. Jessen. Absolutely not.
    Mr. Poe. Okay. Well, my time has expired, and I will yield 
back the balance of my time.
    Mr. Franks. And I thank the gentleman. I now recognize Ms. 
Lofgren for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. My apologies for 
having to step out. I chair the California Democratic 
delegation, and we had the Secretary of Labor meeting with us, 
and I had to go over for 50 minutes to deal with that. However, 
I had the benefit of reading all the testimony and, of course, 
hearing the testimony this morning.
    And really it seems to me that there are a lot of 
distortions in terms of how we are approaching this issue. The 
real agenda here is pretty obvious, which is to try and outlaw 
or eliminate abortion in the United States. That is a right 
that women have under the Constitution, at least in the first 
trimester. And I think this is a thinly-veiled attack on that 
right that women have.
    Now, Ms. Smith, you are at the law school. You have 
analyzed all of this stuff. I have got a list of the services 
that are provided by Planned Parenthood in my State in 
California, 117 centers, just over 800,000 patients that could 
not be absorbed by the other clinics at all. None of the 
abortion services are funded by the Federal Government. It is 
only these other services--contraception, sexually transmitted 
disease treatment, pap smears, breast exams, and even sex 
education and outreach.
    I am just wondering what the impact would be, if you have 
had a chance to look at California's impact. If these centers 
were defunded, what would happen to their patients?
    Ms. Smith. Thank you for the question. Yeah, I do not have 
the exact numbers, but what I know is that, and I think this is 
the terrible irony of this hearing and this idea of defunding 
Planned Parenthood is that if you defund the important non-
abortion related services that the government funds around this 
country, and particularly in California, what would end up 
happening is there would be a significant increase in the 
number of unintended pregnancies, and, therefore, also an 
increase in the number of abortions that would occur. Now, that 
is just the impact on abortion rates alone.
    We are also talking the ability of women, particularly low-
income women, to obtain high quality services, services that 
simply cannot be absorbed by State community health centers, as 
has been suggested. We are talking about wellness exams, cancer 
screenings, pap smears, STD testing, all kinds of services.
    So Planned Parenthood has become so popular not because it 
provides abortions, but because it provides a wide range of 
services that women and men need to stay healthy. And it does 
so at reasonable costs, and with very high quality. And that is 
why I support Planned Parenthood, and that is why a vast 
majority of the American people do as well.
    Ms. Lofgren. Well, in my community, Planned Parenthood not 
only provides birth control and cancer screening and the like, 
but they provide pediatric care. It is a whole family. It is 
not just women coming in. It is women and their children----
    Ms. Smith. And their children.
    Ms. Lofgren [continuing]. That are getting immunizations 
and getting, you know----
    Ms. Smith. Yes. And, in fact, that is----
    Ms. Lofgren [continuing]. Pediatric care.
    Ms. Smith [continuing]. An important point, which is that 
the name ``Planned Parenthood'' I would disagree with the 
Member before. The name ``Planned Parenthood'' is indeed very 
apt because Planned Parenthood is about helping people plan 
their families, plan when they are going to have their 
families, and take care of their families to the best of their 
ability.
    Ms. Lofgren. Just a final question. There has been talk of 
shutting the government down and that then would somehow stop 
Planned Parenthood. What would happen to funding for Planned 
Parenthood if we had a government shutdown at the end of this 
month?
    Ms. Smith. Well, because I am not an official at Planned 
Parenthood, I do know what would happen exactly with their 
funding stream when they get Federal funding----
    Ms. Lofgren. It is mainly Medicaid funding.
    Ms. Smith [continuing]. And when it would come in. So 
Medicaid recipients would not be covered, I assume, for their 
services and for their healthcare needs, and would be unable to 
go to Planned Parenthood clinics. And women would go without 
necessary, and their children, would go without necessary 
healthcare.
    Ms. Lofgren. But it would not defund abortion because there 
is no Federal money going into abortion.
    Ms. Smith. No. No, it would not defund abortion. This 
question about fungibility of money I think is quite ironic 
also. Under Federal law, we do not consider money fungible in 
this way because it really does not apply. It does not move 
from one sphere to another.
    For example, in our religious freedom cases, we allow the 
funding of secular services at faith-based organizations, and 
we do that, and we say it is not an establishment clause 
violation because the money that goes to religious activities 
at those same organizations is separately funded. So we 
recognize the ability, and we can keep those things separate in 
our head in that context. I think we should be able to keep 
those separate here as well because they are separate in 
reality.
    Ms. Lofgren. My time has expired. Thank you, Mr. Chairman.
    Mr. Franks. And I thank the gentlelady, and I will now 
recognize Mr. Gowdy for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. Mr. Bopp, can you 
describe the process of a partial birth abortion so people will 
have a better understanding of why it might have been banned, 
and they may actually have a better understanding of why 
Professor Smith would have argued against that ban.
    Mr. Bopp. Yes. A partial birth abortion, as defined under 
Federal law, is where a physician partially delivers, usually 
the trunk and legs, of the baby, leaving only the head in the 
birth canal, and the baby is alive. And then takes an act to 
kill the baby at that point, usually thrusting scissors into 
the back of the skull in order to kill the baby, and then 
completes the delivery.
    So it is a way of killing the baby when most of the baby is 
already outside of the womb.
    Mr. Gowdy. And there are actually people who argued against 
banning that barbaric practice?
    Mr. Bopp. Oh, yes. I mean, many of the people we have been 
hearing from today were big advocates for a continuation of 
partial birth abortions. They have no respect for human life if 
they consider it to be unborn, or they want to label it as a 
``fetus.'' And literally anything is all right as far as they 
seem to be concerned.
    Mr. Gowdy. Well, let us go to that point because Professor 
Smith seems to draw a line, artificial as it may be, between 
the humanity owed to a viable fetus and the lack of humanity 
owed to what she considers to be a non-viable fetus. Who gets 
to draw that line of demarcation between viability and non-
viability?
    Mr. Bopp. Well, that is a complex question. Number one, it 
is a medical determination on whether or not a child is viable, 
but it is a difficult one, and there are many gray areas. For 
instance, the statistics are after 20 weeks, 1 in 4 can 
survive. And we would consider that to mean, therefore, that 
anyone born at that point in time ought to be considered 
viable.
    But many times you just simply do not know until later. And 
I have not heard any people that work at abortion clinics who 
are able to make that kind of complex medical decision.
    Mr. Gowdy. No, I think Professor Smith, if I heard her 
correctly, said that she was not a doctor, and it should be up 
to the doctors to make that determination, although I did note 
the irony it was 9 damn lawyers who came up with that plan, not 
a one of whom was a doctor. And I also noted the irony of Hank 
Johnson wondering why there were not more women on our side of 
the aisle when they tend to target to seek office as Republican 
women. And there was not a single woman on the Court when Roe 
v. Wade was decided, but that does not seem to trouble him much 
either.
    For those watching at home or here, does civil law not 
recognize the viability of even a pre-viable fetus when it 
comes time for the plaintiff's attorney to get paid?
    Mr. Bopp. There are many instances of cases in various 
states of wrongful death of the unborn, of criminal laws to 
punish----
    Mr. Gowdy. Well, we are going to get to criminal law in a 
second. Let us just stick civil right now.
    Mr. Bopp. Okay.
    Mr. Gowdy. Now, when it comes time for the trial attorney 
to get paid, we have a different definition of ``viability,'' 
right?
    Mr. Bopp. Well, viability is simply not relevant.
    Mr. Gowdy. Exactly. You can be 2 weeks pregnant and you 
have a cause of action on behalf of that unborn child.
    Mr. Bopp. That is correct.
    Mr. Gowdy. And our friends on the other side of the aisle, 
some of whom were plaintiffs' attorneys, have no trouble being 
paid for the life of that 2-week-old.
    Mr. Bopp. Right. The idea of using viability as a standard 
is really antiquated, and most courts have gone away from that 
to just simply the point that if the child is alive.
    Mr. Gowdy. But it is hard to go away from viability when 
Professor Smith said there is not any humanity owed a pre-
viable, she will not say, baby, pre-viable fetus.
    Mr. Bopp. That is exactly----
    Mr. Gowdy. Did I misunderstand her? Is there any degree of 
humanity owed?
    Mr. Bopp. Well----
    Mr. Gowdy. You have been sitting beside her all morning. 
Did I miss something? Is there something outside the bounds of 
decency that we really will not allow as long as the fetus is 
pre-viable?
    Mr. Bopp. Well, as I understand her testimony, if the born 
alive infant is considered to be not viable, then we have a 
free fire zone. We can do whatever we want. We can kill the 
baby at will, harvest their tissues, whatever the case may be. 
And, of course, the concern about producing intact infants, 
which has been demonstrated in the videos, is, of course, the 
possibility that these unborn children are alive. And there is 
even evidence that one of the intact babies born alive had a 
beating heart, which is a definition of being alive.
    Mr. Gowdy. Which is why the videos are relevant to our 
conversation about partial birth abortions. Mr. Chairman, I am 
out of time. I just have two really quick questions for Ms. 
Smith, which she can answer with a ``yes'' or ``no.''
    Ms. Smith, if we were to double the amount of money 
available to the providers, but give it to someone not named 
``Planned Parenthood,'' would you be okay with that?
    Ms. Smith. I would have to know who it was going to and 
whether they were qualified----
    Mr. Gowdy. Anyone not named ``Planned Parenthood.''
    Ms. Smith. Not ``anyone,'' no.
    Mr. Gowdy. Anyone who is qualified to provide services.
    Ms. Smith. If they provide high quality services to low-
income people in the same way that Planned Parenthood does, 
frankly, yes, I do not have any----
    Mr. Gowdy. So you are okay with us defunding Planned 
Parenthood as long as the money goes somewhere where it can do 
the most amount of good for the same group of people. You are 
okay with Congress defunding Planned Parenthood.
    Ms. Smith. Not in the current environment where there is no 
one----
    Mr. Gowdy. And if there were, would you be okay with it?
    Ms. Smith. If there were, yeah, it would be a different 
world, then, yes, then you could fund that organization----
    Mr. Gowdy. So if we can identify----
    Ms. Smith [continuing]. To do those services.
    Mr. Gowdy [continuing]. Service providers that meet that 
same quality of care not named Planned Parenthood, you will 
support the Republicans in defunding Planned Parenthood.
    Ms. Smith. I do not know that you and I will agree on who 
those people are, and I would have to know who they are.
    Mr. Gowdy. How about we just try?
    Ms. Smith. Theoretically----
    Mr. Gowdy. Why do we not do that?
    Ms. Smith. If you are asking me a hypothetical question 
there was----
    Mr. Gowdy. Yeah, I will double the money as long as it does 
not go to the folks who donate money to Democrats, Planned 
Parenthood. We will double the amount of money available as 
long as it does not go to Planned Parenthood. How is that?
    Ms. Smith. ``As long as it does not go to Planned 
Parenthood?'' Planned Parenthood today is the institution that 
provides the best, highest quality care to women in this 
country across this Nation, in cities, in low-income areas 
where these services are unavailable to them otherwise.
    Mr. Gowdy. They are also the target of videos that are 
barbaric, and heinous, and subhuman.
    Ms. Smith. They are----
    Mr. Gowdy. So as long as we can get that same level of care 
and do it through an entity not named Planned Parenthood----
    Ms. Smith. They abortions at a very small part of their 
services, and this is why you oppose them, and that is the only 
reason you oppose them.
    Mr. Gowdy. You have no idea why. I was voting to defund 
Planned Parenthood, with all due respect, Professor, before the 
videos ever showed up.
    Ms. Smith. I was not talking about the videos.
    Mr. Gowdy. Well, I do not think we know each other well 
enough for you to assign a motive to what I am doing----
    Ms. Smith. Probably not.
    Mr. Gowdy [continuing]. I do not think.
    Ms. Smith. Vice versa. And vice versa.
    Mr. Gowdy. I yield back.
    Mr. Franks. I thank the gentleman. I thank the gentleman. 
Just to clarify, Ms. Smith, you said earlier that in order to 
determine whether an unborn child is viable, one would need to 
ask a doctor. And so, consequently, would you support a 
requirement that when an unborn child is born alive, that the 
child be transported to a hospital so that it can survive if it 
is viable.
    Ms. Smith. If it is viable, if it is born alive?
    Mr. Franks. No, I am saying so that it can be transported 
to a hospital where medical----
    Ms. Lofgren. Mr. Chairman?
    Mr. Franks [continuing]. Where medical doctors can 
ascertain if it is viable.
    Ms. Lofgren. Mr. Chairman, is there an intent to have a 
second round of questions since you are engaging in a second 
round?
    Mr. Franks. I will move on. Can you answer the question?
    Ms. Smith. I would have to see the bill, so I am not 
prepared to support or not support.
    Mr. Franks. I will recognize, Mr. Gutierrez, I believe you 
are next in line.
    Mr. Gutierrez. Thank you, Mr. Chairman. Let me just first 
say I thank all of the men and women that work at Planned 
Parenthood. I thank them for the incredible service that they 
offer millions of women who would otherwise go without the kind 
of kind, considerate, compassionate, understanding service that 
I believe that women in this country need, and that is not 
being offered in other venues.
    I thank them because just this last year, there are 500,000 
fewer pregnancies. That is a way to stop abortion. This should 
not be a question of who is for abortion, who is against. 
Everybody is against abortion, but how do you stop abortions? 
How do you allow everyone to live in the 21st century? How do 
you allow women to live freely in the 21st century if they are 
not charge of their reproductive system? I think that is key.
    And I think part of what is going on here is that Planned 
Parenthood has a direct association with the pill, with 
contraception, and that fight continues to go on. We should not 
have that fight. The vast majority of women in America and 
across the world that have access take birth control. I am 
certainly not going to judge my wife.
    We have two beautiful daughters. They are 8 years apart. 
Why? Because we had access to birth control. We had access to 
birth control so that we could determine when it was we were 
going to have children and we could raise those children. We 
could raise those children to be productive citizens of our 
society.
    When you show me that Planned Parenthood actually was 
selling body parts, then we are going to have a conversation 
about the future of Planned Parenthood. Nobody is showing that. 
And let us make it very, very clear. Medical advances, and 
vaccines for polio, measles, rubella, vaccines against drugs 
and neurological disorders, immune deficiencies, cancer, 
Parkinson's. We need to continue to have medical research, and 
part of that medical research is because there is the ability 
to access the fetal tissues, and that there is not 
profitability in it, and nobody has shown there is 
profitability in it. But there needs to be a way that we have 
medical research in this country.
    And so, I just want to say thank you to all of the women, 
and the men, and all of those that labor in our healthcare 
delivery system across this country, and especially those who 
would provide that to women.
    80 percent of the clients who receive birth control 
services, that is 516,000 unintended pregnancies annually. I 
want you to think about that, and I want you to think about the 
estimated 1 out of 5 women in the United States has visited a 
Planned Parenthood health center at least once in her life. 20 
percent of the women in this country. Of course, some people do 
not want them to visit there anymore.
    And I also want to talk just a little bit about the fact 
that as much as we try to have universal healthcare, we still 
do not have universal healthcare unfortunately in this country. 
And so, I just want to talk just a little bit, I am not for 
abortion. Do I honk if I see a sign that says ``honk if you are 
for choice?'' Yeah, I do honk. We have been very lucky and very 
fortunate in my family and in my own personal experience, even 
when we were pretty poor, to have access to healthcare for my 
wife, because there were people out there that were giving that 
kind of access.
    And I want to end not by trying to have, I mean, to kind of 
say that we are for Planned Parenthood because we receive 
money, I think it is a little just under the belt. This is 
really about women and about what is the law. So just two last 
points.
    There seems to be a question here of morality, and I just 
want to say that, look, when you have Members of the House of 
Representatives proposing DOMA that have been divorced four 
times, I think we might want to question their knowledge or 
their sincerity about marriage. Of course, that was overturned 
by the Supreme Court. When we have clerks that are married 
once, twice, three, and then all of a sudden get religious and 
say, well, I am not going to give a marriage certificate to 
those two men or those two women because it is a case of 
morality, maybe I might want to question people's morality.
    But in the end, what you cannot question is this 
Congressman's right to defend his two daughters' rights. I 
raised them. I gave them the best I could, and I trust them. 
And I am going to protect their right and the right of every 
other woman to make decisions about their reproductive systems 
with their conscience. I raised them. I gave them the best 
values and the best I could do, and I need to respect them now.
    And I just wish that in this society we would have a system 
that respected all women and the kinds of decisions that they 
have to make every day. Every day they have to make decisions. 
And I do not think we are in a position to judge them, and I am 
certainly not going to allow others to promote legislation or 
to promote situations that put that in jeopardy.
    Thank you so much, Mr. Chairman.
    Mr. Franks. I now recognize Mr. Labrador for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman, and, in fact, I am 
really grateful for the words of morality that we just heard 
from my good friend, Luis Gutierrez because this is an issue of 
morality. This is why we are here today.
    I want to begin by making it clear that to me it is not an 
issue simply of whether Planned Parenthood broke the law by 
selling fetal body parts obtained through abortion. In fact, I 
do not know if we are ever going to be able to answer that 
question whether it was illegal for them to do what they were 
doing. The real tragedy is that we are confronted today with is 
that human beings have been reduced to mere commodities in this 
practice, and Federal dollars are contributing to it. And I 
think that is immoral.
    I do not want to contribute to a system that profits from 
someone's fate, nor do I want to subject millions of taxpayers 
to supporting this violation of life. It is often a temptation 
to boil this argument down to medical terms and ignore the real 
losses our Nation faces when we choose to reject someone before 
he or she has been given a chance to live, like these two 
beautiful women who are here today with us and who have 
testified so eloquently.
    I commend both Ms. Jessen and Ms. Ohden for their courage 
to come before this Committee as living expressions of life's 
potential. I am certain that life has not always been easy for 
them, but I am incredibly grateful that you were given the 
opportunity to live, and that you are choosing to spend time 
with us today.
    I, too, could be said to be a survivor of abortion. My 
mother, God rest her soul, passed away 10 years ago this month. 
I love her, and I love her most of all because at the time of 
her pregnancy when she was a single mom, she was encouraged by 
people like Ms. Smith and others to abort me. She was told that 
the only way she was going to have a life, a good life, was 
making sure that she did not have this child.
    And she did a make personal choice, a choice that should be 
respected. She made the choice to give me life, but not to just 
give me life, but to give me a good life; to raise me to the 
best of my ability to become the best that I could do. She made 
a deal with her God that if she was going to have this child, 
she was going to do everything in her power to make sure that 
this child had a good life. Even though she was a single mom, 
she did not have any money, she did not have much in her life, 
she was going to give me the best opportunities and everything 
else available to me.
    And when we talk about this in scientific terms, we forget 
that we are talking about children. We are talking about human 
life. We are talking about people who have a God-given 
potential to be the best that they can be and to be everything 
that they can be. So I hope we do not forget that.
    And when I watched those videos, I have to admit that I 
could only watch two of them. I think there are seven or eight 
of them. I could not watch after the second one because I was 
sickened to my core. To me it was immoral. I do not know if it 
is illegal, Ms. Smith, but it was immoral what I was seeing on 
that video.
    We can have a discussion whether at some point there should 
be abortions. You and I will disagree on that discussion. But I 
can tell you that at that point when those videos were showing 
that abortion, this Nation should really step back and decide 
whether we are a moral Nation or an immoral Nation; whether we 
are willing to allow that to happen or not.
    So I have a few questions for you, Ms. Smith. You 
emphasized that Federal funding for Planned Parenthood is not 
used for abortion, yet you go on to say that defunding Planned 
Parenthood would ultimate lead to an increase in abortions. 
Explain to me why you only associate abortion with Planned 
Parenthood in the case of defunding Planned Parenthood, but 
fail to recognize the connection the Federal Government 
actively contributes money to Planned Parenthood.
    Ms. Smith. What I was saying was that if you defund Planned 
Parenthood, you defund their contraceptive services and the 
care that they provide to women who are----
    Mr. Labrador. So as Mr. Gowdy said, if we gave that money 
to other community health organizations, would that be okay?
    Ms. Smith. If there were community health organizations 
that provided as high quality care as Planned Parenthood----
    Mr. Labrador. Do you think the only community health 
organization in America that can provide this high-quality care 
is Planned Parenthood?
    Ms. Smith. Currently, it is definitely the highest quality 
care available, yes.
    Mr. Labrador. Well, you are saying ``the highest,'' but are 
they the only? There are other community health organizations 
that can do that.
    Ms. Smith. There are definitely community health centers. 
There is a reason people do not go to them and people go to 
Planned Parenthood. It is because the care is better.
    Mr. Labrador. Mr. Bopp, you have elaborated about the 
potential legal violations that Planned Parenthood may face. 
However, even it is found that Planned Parenthood did not 
violate any laws, what justification remains for using taxpayer 
dollars to fund their practices?
    Mr. Bopp. I am sorry, the question again, sir?
    Mr. Labrador. You have elaborated on whether Planned 
Parenthood potentially violated the law. Even if they did not 
violate the law, is there any justification to continue to fund 
their practices?
    Mr. Bopp. Is there any justification to continue to fund 
Planned Parenthood? No. The reason there is no justification is 
that even if the current laws are not violated, they clearly 
are committing abuses and violating moral and ethical 
principles, and violating the safeguards. As wrong as the NIH 
panel was about recommending this research, at least they 
talked about and proposed safeguards, like no financial 
incentives.
    When the laws got passed, it was passed by people that 
wanted to facilitate. The law was written by people who wanted 
to facilitate fetal tissue procurement from aborted fetuses, 
and, frankly, went beyond what the panel would have limited it 
to.
    So it could very well be that the current laws need to be 
adjusted in order to provide, one, effective protection against 
these financial incentives, and, two, by providing the 
necessary protection for infants born alive, which we have a 
witness right here before this Committee speaking for the 
abortion industry that says they are in a free fire zone if 
they are not viable.
    Mr. Labrador. Thank you. I yield back my time.
    Mr. Franks. I thank the gentleman, and I will recognize Mr. 
Deutch for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Today marks the first 
hearing of the full House Judiciary Committee after a lengthy 
August recess. How fitting it is that it be devoted to a bogus 
and politically-motivated attack on women's healthcare and on 
those who provide it.
    Let us be clear. The entire premise of today's hearing is 
based on viral videos that have been dissected, debunked, and 
discredited. For 3 years, anti-abortion activist fraudulently 
cast themselves as biomedical researchers. Their goal: to find 
a gotcha moment that catches staff affiliated with Planned 
Parenthood breaking the law, and after 3 years of deception 
they have failed to find it.
    So what do these extremists do? They heavily edited footage 
to smear Planned Parenthood, a non-profit healthcare provider 
that serves over 2.7 million Americans every year as some sort 
of for-profit enterprise engaged in a preposterous black market 
of fetal tissue. Conveniently scrubbed out of the parts where 
staff says that no one should sell fetal tissue, and their goal 
is to cover the costs of the donation process. In short, these 
videos are heavily edited and intended to deceive.
    So why are we here? We have already learned that Planned 
Parenthood did not engage in any wrongdoing. They only do fetal 
tissue donation in a handful of states; that fetal tissue 
research was consensually obtained through legal abortion, was 
legalized by Congress in 1993 with bipartisan support; that 
Planned Parenthood's goal is to fulfill the wishes of those 
patients who decide to donate fetal tissue to science, and 
perhaps--perhaps--contribute to research that may someday yield 
cures to Alzheimer's, and blindness, muscular dystrophy, and so 
many other ills.
    So fetal tissue research is legal. Family planning is 
legal. And as much as some of our witnesses today like to 
pretend otherwise, abortion is legal. Yet here we are. This 
deception has led Congress to hold the first of apparently 
several hearings. This deception has led presidential 
candidates to pledge to defund Planned Parenthood, a provider 
that 1 in 5 American women relies on in their lifetime.
    Well, guess what? No Federal funding goes to abortion, so 
when you defund Planned Parenthood, you are just defunding the 
over 97 percent of what they do that is not abortion, meaning 
you defund pregnancy tests. You defund birth control. You 
defund screenings for breast cancer, and cervical cancer, and 
ovarian cancer. You defund vaccinations, you defund access to 
referrals to other hospital and specialists, and you deny 
prenatal care.
    So what happens when you defund Planned Parenthood, a 
provider that serves over 2.7 million Americans? You defund 
access to healthcare that has nothing--nothing--to do with 
abortion.
    Now, let me correct the record here. Planned Parenthood 
does spend Federal funding on birth control that prevents 
unwanted pregnancies that may lead to abortion. Indeed, in 2013 
alone, Title 10 sites like Planned Parenthood helped prevent 1 
million unintended pregnancies, which statistically would have 
likely led to over 300,000 more abortions that year.
    I honestly do not know why we are here today, but here is 
what I do know. I know that not a single one of the men sitting 
on this dais today ever had to cap a sentence about their 
educational goals, or their career plans, or their financial 
aspirations with the phrase, ``unless I get pregnant.''
    I know that Federal law already prohibits Planned 
Parenthood from using any tax dollars on abortion-related care. 
Frankly, I think all women should have access to legal abortion 
regardless of their financial means. And I know that this 
movement to defund Planned Parenthood is not just an attack on 
the constitutional right to a safe legal abortion. It is an 
attack on the entire concept of reproductive justice, which is 
the idea that all women, regardless of their race, or sexual 
orientation, or economic background, have the right to 
education about sexual health and the right to manage their 
reproductive health; that they have the right to delay 
childbearing until they are ready to become mothers, that this 
right to control their fertility gives them a better shot at 
controlling their own destinies.
    Today's hearing, Mr. Chairman, is an attack on the autonomy 
and, therefore, on the dignity of women. I, therefore, will not 
dignify it with any questions, and I yield back the balance of 
my time.
    Mr. Franks. And I am grateful. We now recognize Mr. 
Ratcliffe for 5 minutes.
    Mr. Ratcliffe. I thank the Chair for convening this 
hearing, although I certainly wish it was not necessary, and 
that the horrifying events that have prompted it had not 
occurred in our country. I am grateful for pro-life leaders 
like Chairman Goodlatte, who are spearheading this critical 
investigation. And I think it is worth pointing out that that 
is what this is, it is an investigation, and it is the 
beginning of an investigation, not the end of one.
    I did not come here to make conclusions unlike some of the 
Democratic colleagues of mine who have been making conclusions 
from the beginning of this hearing. In fact, in the Ranking 
Member's opening remarks, he stated that there was no credible 
evidence that Planned Parenthood had violated the law. He said 
that before he heard a single word of testimony here.
    The Democrats in this room, my colleagues across the aisle, 
can feign outrage, but this is the obligation of Congress. If 
Federal tax dollars are going to Planned Parenthood, we have an 
obligation as duly elected representatives of the people to 
determine whether or not they are using those Federal tax 
dollars to violate the law. So my colleagues across the aisle 
can be upset, but Congress is doing exactly what it should here 
today.
    The gentleman before me just commented on the fact that 
Congress has returned after a month of recess. Well, I can tell 
you what the 700,000 people in East Texas that I am privileged 
to represent wanted to talk about. They wanted to talk about 
what they saw on these Planned Parenthood videos. Now, again, 
my colleagues across the aisle can say that the videos are not 
real, but they are very real to the 700,000 Texans that I 
represent. And I came here today to ask some questions about 
that, and I think that the Texans that I represent and 
Americans generally have been sickened by what they have seen 
on those videos.
    Professor Smith, earlier today you referred to Planned 
Parenthood as a beloved institution. I do not know Planned 
Parenthood. All I know is what I have seen on the videos and 
what their representatives have said. And in examining that 
footage, I do not see a beloved institution. I see an 
organization that appears to have a blatant disregard for human 
life. At least that is what appears on the video.
    Now, I know that you have talked about how those videos are 
not reliable, but that is not the same thing as saying that 
they are not true. You are not here today under oath to say 
that none of those statements made by Planned Parenthood 
employees were not true, are you?
    Ms. Smith. Certainly some of the words they uttered and 
many of the statements they said, they did say absolutely. But 
I think the videos were edited to make it seem that they said 
things they did not say.
    Mr. Ratcliffe. Well, again, I am not asking you to say that 
they are true. What I am saying is would you at least agree 
with me that if the words as you heard them on the video are 
true, that there were some outrageous statements made.
    Ms. Smith. Well, we would have to talk about which 
statements I think, so.
    Mr. Ratcliffe. Okay. Well, let us talk about some of those 
statements.
    Ms. Smith. Okay.
    Mr. Ratcliffe. Ms. O'Donnell said, and I will quote it 
exactly, ``This is the most gestated fetus and the closest 
thing to a baby that I have ever seen,'' and she taps the heart 
and it starts beating. ``I knew why that was happening. The 
nodes were still firing, and I do not know if that means it is 
technically dead or it is alive. It had a face. It was not 
completely torn up. Its nose was pronounced. It had eyelids. 
Since the fetus was so intact,'' she said, ``Okay, well, this 
is a really good fetus, and it looks like we can procure a lot 
from it. We are going to procure a brain.''
    I am not asking you if that statement is true. I am saying 
if it is true, would you agree with me that that is outrageous, 
and it raises questions about the legality of actions being 
taken at Planned Parenthood?
    Ms. Smith. I do not think it raises questions about the 
legality of the actions. I think what she is talking about is 
an abortion of a pre-viable fetus in ways that are distasteful 
to many of us. And I think the language perhaps is not 
sensitive to people in how they want to think about a fetus.
    We often equate fetus with baby. In fact, Members of this 
Committee have done so repeatedly today, and that makes us 
think about full-term gestated babies rather than fetuses in a 
very early stage of gestation, which is what she is talking 
about. So when you juxtapose those images in your mind, it 
becomes very distasteful. But when you are talking about a very 
early undeveloped----
    Mr. Ratcliffe. Well, reclaiming my time, I understand we 
are going to----
    Ms. Smith [continuing]. Situation.
    Mr. Ratcliffe [continuing]. We are going to disagree about, 
you used the term ``fetus,'' I will use the term ``baby.'' But 
that statement as I read does not give you reason to think that 
Congress should investigate whether or not that statement, if 
true, perhaps violated the partial birth ban or the born alive 
law?
    Ms. Smith. There is nothing in that statement. Let me talk 
briefly about----
    Mr. Ratcliffe. Well, let me move on. You have told me that 
you do not agree with me.
    Ms. Smith. Okay.
    Mr. Ratcliffe. We are just going to have to agree to 
disagree. But something earlier that you said with Congressman 
Gowdy was that you would be okay with Congress defunding 
Planned Parenthood if it made those same Federal tax dollars 
available to other providers that were qualified to give 
healthcare to women in this country.
    Ms. Smith. If there was an institution that provided as 
high quality care as Planned Parenthood does on a consistent 
basis----
    Mr. Ratcliffe. Well, that is not what you said earlier.
    Ms. Smith. Well, let me correct the record and be more 
clear about it. Yes, that is what I am talking about is----
    Mr. Ratcliffe. Okay. Well, so did you know that there are 
20 federally-funded comprehensive care clinics for every one 
Planned Parenthood in this country?
    Ms. Smith. There are many community health centers----
    Mr. Ratcliffe. And are you aware that there are actually 
13,000 federally-qualified healthcare centers for women in this 
country?
    Ms. Smith. Yes, and many of them provide much lower quality 
healthcare unfortunately than Planned Parenthood does. There 
was an investigation recently and an article, I think it was in 
Salon.com about the difference between community health centers 
and Planned Parenthood clinics and comparing----
    Mr. Ratcliffe. Well, with all due respect, Professor Smith, 
you keep saying that you do not----
    Ms. Smith. There is a reason people go to Planned 
Parenthood, which is that the care is very good, very 
compassionate, and----
    Mr. Ratcliffe. As compassionate as what we saw in those 
videos?
    Ms. Smith. People trust them.
    Mr. Ratcliffe. Well, we are just going to have to agree to 
disagree on that. I do want to reserve some of my time to----
    Mr. Goodlatte [presiding]. Unfortunately, the gentleman's 
time has expired.
    Mr. Ratcliffe. Then I will yield back.
    Mr. Goodlatte. And the Chair thanks the gentleman, and 
recognizes the gentlewoman from Washington, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair. I wish I could say I am 
surprised that this Committee's first order of business after 
this August break is to launch yet another attack on women's 
health, but I am not. Already this year the House has voted to 
restrict reproductive healthcare in private insurance, to enact 
a sweeping 20-week abortion ban, and to allow employers to 
discriminate against their workers for using birth control. And 
now, we are conducting a so-called investigation that is rooted 
in extreme anti-choice ideology rather than evidence and facts.
    It is shameful that this Committee is legitimizing the 
extremists, whose only real intent is to intimidate women and 
their healthcare providers, and to shutter Planned Parenthood 
clinics in communities across the country. In my State of 
Washington, we are already seeing the consequences of these 
irresponsible, baseless attacks. Last Friday, one of our 
Planned Parenthood clinics was the victim of arson, a senseless 
act of violence.
    It is past time for Congress to stop focusing on ideology 
and start focusing on the fats. And the fact is that defunding 
Planned Parenthood would have a devastating impact on women's 
access to care. That care includes well women visits, cancer 
screenings, immunizations, birth control. In fact, more than 90 
percent of the services provided by Planned Parenthood are 
preventative.
    We cannot allow the reckless actions of a few extremists to 
jeopardize the critical safety net provided by Planned 
Parenthood. And with that, Mr. Chair, I would like to submit 
for the record a letter from 92 organizations, including the 
National Women's Law Center, expressing their support for 
Planned Parenthood.
    Mr. Goodlatte. Without objection, it will be made part of 
the record.
    Ms. DelBene. Thank you.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                 __________
    Ms. DelBene. Professor Smith, we were just talking about 
comments that some of my colleagues have made that community 
health centers would be able to fill the void if Planned 
Parenthood was defunded. I would love to get your opinion on 
that. Is it your understanding that some Americans would be 
left without access to preventative health services if they 
were no longer funded and those services were no longer 
available?
    Ms. Smith. That is right. I do not know the details. I have 
not studied all the areas that are without community health 
centers, but I know that there are many places that simply do 
not have access to them. I also question the level of services 
that are provided in some of those centers as well. And Planned 
Parenthood remains the only option for many people to obtain 
these services. That is definitely true.
    Can I correct the record with one point also while----
    Ms. DelBene. Certainly.
    Ms. Smith [continuing]. Which is something that Mr. 
Labrador said that people like Ms. Smith encourage people to 
have abortions. And I just want to correct the record and say I 
have never encouraged someone to have an abortion. I have 
talked to some women who are friends who have been considering 
abortion, and they have discussed their options with me. But I 
would never encourage someone or push anyone to have an 
abortion, and I wanted to just make that clear on the record.
    Ms. DelBene. I understand. I just want to highlight in my 
State of Washington, Planned Parenthood has--this is actually 
2013 numbers--almost 120,000 patients, over 17,000 folks who 
have gone in for a pap test, over 17,000 who have gone in for 
breast exams. So we are talking about preventative services 
that are so critical.
    Ms. Smith. A huge number, yes.
    Ms. DelBene. And in your opinion, are there particular 
groups that would be impacted more significantly if Planned 
Parenthood preventative services were no longer available?
    Ms. Smith. Absolutely. Women who do not have insurance, 
low-income women in particular, women of color in communities 
which do not have access to high-quality services and do not 
have health insurance despite the Affordable Care Act and all 
the gains that we have made there.
    Ms. DelBene. And as we talk about some of the attacks that 
we have seen against Planned Parenthood, you talked about this 
in your testimony. There is a history of this. Can you 
elaborate a little bit more on that?
    Ms. Smith. Yes. There have been 9 different similar kinds 
of smear campaigns just since 2000 using these kinds of videos, 
accusing Planned Parenthood of everything from hiding statutory 
rape, to I forget all the different ones. There have been a 
number of them, and Mr. Bopp was asked about them previously as 
well, and that certainly has gone on. Every time there has been 
a full investigation. There is a huge hue and cry about it. It 
gets in the press. Everyone goes crazy. Congressional hearings 
are held. Things are investigated, and the claims are debunked. 
It has happened again and again and again, and I will predict 
that that will happen again this time.
    Ms. DelBene. Thank you. It is unfortunate that it is 
happening right now. Thank you and I yield back the remainder 
of my time, Mr. Chair.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Michigan, Mr. Bishop, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chair, and thank you to those of 
you who have showed up to testify today. Thank you for the fact 
that you have had to sit through this long bit of questioning. 
It is very important to all of us.
    I take exception with the last exchange that I heard, terms 
like ``smear tactics,'' or ``smear campaign,'' ``attack on 
women's health.'' What would you have us do? I do not 
understand. All of us had to witness what we saw in these 
videos. Planned Parenthood is funded by the United States 
government, by taxpayers. It is our responsibility as Members, 
Republicans and Democrats, to address issues like this in this 
format.
    I think it would be easy just to walk away from this and to 
just pretend like it did not happen, put our head in the sand. 
It seems like Congress does that a lot. But in this case, the 
videos were so abhorrent and so unconscionable that it is our 
responsibility to step up and to have these hearings to get to 
the bottom of it before we go forward with the same old same 
old of funding and funding for the sake of having done it 
before.
    This is our responsibility, and I just want to make that 
point clear that I am not here on any witch hunt. I am a newer 
Member. I have not been a part of anything that has happened in 
the past. I am not here as Republican or Democrat. I am here 
because I am an American citizen, and I am also a taxpayer, and 
I believe it is our responsibility to marshal our resources and 
do it in a way that is consistent with our fiduciary duty. That 
said, when I see this video I am outraged, and as a citizen I 
want to be here and talk to all of you. I am sorry about the 
diatribe, but I think it is very important that you see the 
emotion in all of us.
    I want to get back to a question that we began with, and 
that was the discussion that we had about valuable 
consideration, and whether or not any of this testimony, 
everything that we have heard, the video, is, in fact, illegal. 
What is ``valuable consideration?'' I offer that as a question 
to my legal counsel, both of you. Mr. Bopp, you suggested there 
is a gaping hole, and it is for reasonable payments for 
reimbursable costs, whatever that might mean.
    I want to read you a portion of this transcript, if I 
might. And this is between one of the folks that set up the 
undercover video and two individuals in Planned Parenthood. The 
actor that was there for the undercover video said, ``And we 
agree that $100 will keep you happy, correct?'' Lauren Felzer 
replies--she is also the senior director of Planned 
Parenthood--``I think so.'' Dr. Gatter, also there, M.D. with 
Planned Parenthood, said, ``Well, let me find out what other 
affiliates in California are getting, and if they are getting 
substantially more, then we can discuss it then.'' The actor 
says, ``Yes.'' Dr. Gatter says, ``I mean, the money isn't the 
important thing, but it has to be big enough that it is 
worthwhile.'' The undercover person says, ``No, no, but it is 
something to talk about. I mean, it was one of the first things 
that you brought up, right?'' Dr. Gatter, ``Hmm.''
    The undercover person says, ``Now, here's another thought. 
If we could talk about a specimen, per specimen per case, or 
procured tissue sample.'' Dr. Gatter, ``Hmm.'' Buyer, ``So if 
we are able to get a liver thymus pair, maybe that's $75 per 
specimen. So that is a liver thymus pair, and that's $150.'' 
Dr. Gatter, ``Hmm.'' Maybe that is ``mm hmm.'' I cannot tell 
from this transcript.
    Buyer, ``Versus if we get a liver thymus brain hemisphere, 
and all of that is,'' and Dr. Gatter says, ``Okay.'' Buyer, 
``So that protects us so that we're not paying for stuff we 
cannot use, and I think it also maybe illustrates things.'' Dr. 
Gatter, ``It's been years since I have talked about 
compensation, so let me just figure out what others are 
getting. If this is in the ballpark, it is fine. If it's still 
too low, then we can bump it up. I want a Lamborghini.'' And 
the undercover person says, ``What did you say?'' And Dr. 
Gatter says, ``I said I want a Lamborghini.''
    Now, I just read you a portion of that transcript of that 
video, and this appears to be a flat fee exchange. It is almost 
as though they are at a restaurant picking from a menu. Is that 
not valuable consideration that they are talking about, and 
have we had any discussion about reasonable payment for 
reimbursable costs?
    Mr. Bopp. Well, your last point is what is noteworthy 
because paying anything is a valuable consideration. And the 
exception, which they are trying to exploit, is for reasonable 
reimbursement of costs, reasonable payments for various costs 
associated with the procurement of the tissue. Well, the costs 
do not vary based upon how many specimens you get out of a 
particular fetus. What varies is how much money you are going 
to get out of it.
    And what is noteworthy about that exchange is where was the 
discussion or reference to, well, what does it cost us when 
they are talking about how much. What she was interested in is 
what is the market price. In other words, what is everybody 
getting for this, not because of our costs, but because of what 
they are getting. That discussion is 100 percent about 
maximizing the amount of money that is obtained based upon 
market considerations and based on per specimen. The costs are 
not going to change by how many specimens you get, and a per 
specimen price is not based on any idea of what are the costs 
related to the procurement.
    Mr. Bishop. Thank you. I know that my time has expired, Mr. 
Chair, but if I might, the video to which I just referred to 
and what this Committee has repeatedly referred to throughout 
this hearing is a material part of this discussion. And at this 
time, I would ask unanimous consent to enter into the record 
the entire transcripts, all the transcripts, from these 
abhorrent tapes that we have been discussing today.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee. Also, see Rep. Mike Bishop 
Submissions at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=103920.
    Mr. Goodlatte. Without objection.
    Mr. Cicilline. A point of parliamentary inquiry, Mr. 
Chairman.
    Mr. Goodlatte. I am sorry.
    Mr. Cicilline. A point of parliamentary inquiry.
    Mr. Goodlatte. Sure.
    Mr. Cicilline. Are those transcripts complete and full and 
unedited? Do they contain all of the statements made because I 
think a review was done that demonstrated the transcripts were 
inaccurate, and I think it is important if the Committee is 
going to admit them and rely on them, that we should have some 
affidavit ensuring that they are, in fact, complete, fair, and 
accurate recordings of what was actually said in the complete, 
unedited recordings.
    Mr. Bishop. Mr. Chair, if I might respond.
    Mr. Goodlatte. Absolutely.
    Mr. Cicilline. Because we are just compounding injury upon 
injury if we are going to admit to this Committee a set of 
transcripts that are inaccurate, that distort exactly what 
happened, and rely on them. We have a responsibility to be sure 
that they are complete and accurate.
    Mr. Goodlatte. Is the gentleman requesting that the 
transcript of the public video be made a part of the record?
    Mr. Bishop. Yes. These are the public videos that appear 
that on the----
    Ms. Lofgren. Reserving the right----
    Mr. Goodlatte. So much like of a transcript of any other 
program----
    Mr. Cicilline. No, quite unlike----
    Mr. Goodlatte [continuing]. That is made available through 
a news organization or anything else, that is what the 
gentleman is requesting.
    Mr. Bishop. Exactly.
    Ms. Lofgren. Reserving the right to object.
    Mr. Bishop. And Members can assign credibility to whatever 
part of it is----
    Mr. Goodlatte. You are not characterizing it. You are just 
putting into the----
    Mr. Bishop. Exactly.
    Mr. Goodlatte. A transcript of the public record.
    Mr. Bishop. What has appeared to everybody.
    Ms. Lofgren. Reserving the right to object.
    Mr. Goodlatte. For what purpose does the gentlewoman----
    Ms. Lofgren. I would like to comment, it has been the 
policy of the Committee to not object to putting anything in 
the record of whatever evidentiary value, so I do understand 
that tradition, and it is not my intention in the end to 
object. But I would like to note that if we are going to agree 
with this, we must also include the forensic report by the 
Fusion Group that analyzed the video showing that it has no 
evidentiary value.
    Mr. Goodlatte. If the gentlewoman wishes to offer that, I 
would be happy to put that in the record if there is no 
objection to that as well.
    Ms. Lofgren. That would be my request, Mr. Chairman.
    Mr. Goodlatte. All right. Without objection, both of those 
documents will be made part of the record.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                   __________
    Mr. Goodlatte. And the Chair thanks the gentleman, and now 
recognizes the gentleman from Rhode Island, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here today and for offering your differing 
viewpoints on this very difficult issue. And I know the passion 
that accompanies both sides as well as passion from my 
colleagues.
    I am still kind of struggling with what exactly this 
hearing is about. Issues have been raised with respect to the 
fetal tissue research. It is clear that there are established 
scientific protocols that were followed. There is a 
correspondence in the record from August 27th that confirms 
that. There has been a lot of discussion about late term 
abortion, which, of course, is prohibited under Federal law. 
And then a lot of discussion about the central question of 
whether women have a constitutional right to make decisions 
regarding their own reproductive healthcare. That is also a 
settled question of law.
    You said, Mr. Bopp, that you in your written testimony 
reviewed these recorded conversations released by the Center 
for Medical Progress, and they reveal many legal issues with 
Planned Parenthood's procedures and practices regarding fetal 
tissue procurement. And you base that on your review of these 
video recordings, and then you were asked about a series of 
allegations that laws may have been broken in the generation of 
these videos, Federal tax laws, criminal laws in California 
that prohibit fraud and forgery, making false charitable 
solicitations and the like. And Mr. Dahlia's lawyer recently 
advised a Federal court that he intends to invoke his Fifth 
Amendment right against self-incrimination in response to a 
lawsuit alleging he violated Federal and State laws.
    You said further that you were advised by this Committee 
not to discuss the circumstances that occurred in the 
production, and editing, and alteration, and securing of these 
videos. Is that correct?
    Mr. Bopp. As you are aware, the purpose of this hearing, 
that is not part of purposes of this hearing.
    Mr. Cicilline. That is not my question, Mr. Bopp. Were you 
advised by the Committee counsel not to discuss the allegations 
of criminal behavior in the generation of these videos? That is 
a ``yes'' or ``no.''
    Mr. Bopp. I am not answering ``yes'' or ``no'' to that 
question.
    Mr. Cicilline. But were you advised? You said you were 
advised not discuss it.
    Mr. Bopp. You misstated what I said I was advised about, so 
how can I say ``yes'' or ``no?"
    Mr. Cicilline. Were you advised not to discuss how these 
videos were produced, whether it was done in violation of law?
    Mr. Bopp. I was advised that that is not the purpose of the 
hearing, and I should not comment.
    Mr. Cicilline. Okay. What this really is, Mr. Chairman and 
Members of the Committee, is creating an opportunity to defund 
Planned Parenthood, and to make it more difficult for women to 
have access to full reproductive healthcare. We know the value 
of Planned Parenthood each year provides essential care to 2.7 
million patients, men and women; that 1 in 5 women in the 
United States has visited Planned Parenthood once in her 
lifetime; that a million and a half young people and adults 
participate in educational programs on reproductive health; 
that 6 million visits a month to the Planned Parenthood website 
where healthcare information is readily available in English 
and in Spanish.
    700 clinics throughout the country that provide 900,000 
cancer screenings to help women detect cervical and breast 
cancer early. 400,000 pap tests, 500,000 breast exams, and 
80,000 of those cancer screenings detected early so that 
hundreds of thousands of children, siblings, and parents are 
still able to be with their loved ones because Planned 
Parenthood saved their lives.
    I want to associate myself with the remarks of Congressman 
Deutch and Congressman Gutierrez. I think as you said, Ms. 
Smith, the cruel irony is that an effort to defund Planned 
Parenthood, which is already prohibited from using any Federal 
funds to provide abortion services, means the other 97 percent 
of their services that I just outlined would be compromised. 
And, in fact, the incidence of unwanted pregnancies and 
abortion would increase.
    So defunding Planned Parenthood is very likely to cause 
exactly the thing that the opponents of Planned Parenthood 
claim they do not want, and that is more abortion. Could you 
speak more about that?
    Ms. Smith. Yes, I think that is right, and I think one of 
the things that this makes clear is that the campaign against 
abortion goes beyond abortion, and that it is also a campaign 
against contraceptives. We have seen that campaign heat up 
recently. I just wrote a paper about this, not to promote my 
own research, but called ``Contraceptive Comstockery,'' which 
is about the recent campaign, which revives some of the tactics 
of anti-abortion and anti-contraceptive advocates in the late 
1800's and into the 1950's. So that continues today.
    Mr. Cicilline. Yeah, it is very disappointing since many of 
us had hoped that this issue has been settled, that women have 
the right to full reproductive healthcare, that they have a 
right to make decisions about their own bodies in consultations 
with their own physicians and their own conscience, and that to 
have our first hearing in the Judiciary Committee, another 
effort to make it more difficult for women in America to access 
high-quality healthcare is incredibly disappointing.
    I thank you for your testimony, and I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Georgia, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I ask unanimous 
consent to enter into the record my opening statement.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The prepared statement of Mr. Collins follows:]
 Prepared Statement of the Honorable Doug Collins, a Representative in 
   Congress from the State of Georgia, and Member, Committee on the 
                               Judiciary
    Mr. Chairman, thank you for holding today's hearing on the abortion 
practices at Planned Parenthood. I'm grateful for your commitment to 
examining the horrific practices that have been uncovered through a 
series of undercover videos and to investigating the allegations 
against Planned Parenthood.
    As the father of three children, I believe we have no greater 
responsibility than protecting human life. I believe abortion is wrong 
and I think we have a responsibility as human beings to be a voice for 
those who do not yet have a voice--the innocent unborn. These unborn 
children are human beings, gifts from God that are brimming with 
potential. We need to look no further than two of the witnesses sitting 
before us today. These women, Gianna Jessen and Melissa Ohden, are 
survivors. They are also proof that there was and is a plan and purpose 
for their life and that babies unborn and born deserve protection.
    But we are here today to talk specifically about Planned Parenthood 
and their abortion practices. For years Planned Parenthood has engaged 
in morally questionable activities, but the videos released by the 
Center for Medical Progress have raised serious questions about 
immoral, inhumane, and quite possibly illegal practices at Planned 
Parenthood.
    The videos seem to indicate clear intent to alter abortions to 
harvest fetal organs. This is despicable in and of itself, but it 
becomes even more morally reprehensible when shown that Planned 
Parenthood could even be profiting from the sale of babies' body parts.
    Planned Parenthood officials in the videos seem to have no qualms 
discussing the dissection and sale of fetal organs. They casually 
discuss the commercial exploitation of aborted fetal tissue over lunch, 
as if babies are a commodity for trade and profit rather than precious 
lives to be protected.
    Abortion proponents and Planned Parenthood apologists try to 
distort the issue by painting the justifiable outrage and upset over 
the videos as attacks on women's health. In fact, the Democratic 
witness present today has claimed this hearing is an attack on Planned 
Parenthood and the reproductive care it provides. This could not be 
more false.
    First of all, just looking at Georgia as an example, there are 5 
Planned Parenthood facilities in my home state. Compare that to the 274 
clinics in Georgia providing comprehensive health care services for 
women. This issue is not about access to care.
    This hearing is about ensuring the nation's largest abortion 
provider--which receives hundreds of millions of dollars in federal 
funding--is not illegally harvesting fetal organs.
    The Committee's investigation is not a jump to conclusions but 
rather a fact-finding mission to gather the full truth surrounding the 
horrific allegations in the Center for Medical Progress' videos.
    I hope that this will be just the first among many hearings to 
investigate these abortion practices and to shed light on Planned 
Parenthood's actions. The American people have a right to know what is 
happening, and we have a moral obligation to be a voice for the unborn.
    Thank you, Mr. Chairman, and I yield back.
                               __________

    Mr. Collins. Thank you, Mr. Chairman. As I have said many 
times as being a Member the last Congress and now this 
Congress, I am sort of down here toward the end. And after 
hearing everything, there are many times that you come to 
points of really wondering, the points of why we are here. And 
I am able to talk about a lot of different things.
    Ms. Smith, I am not even sure, and I may get to you on 
questions. But what I have heard a lot today from you is 
context. I am not sure how any of these you could ever put into 
proper context. I do not care how many ways you want to spin 
it, what was on those videos and what was said. There is no way 
you put some of these in context that they are not abhorrent to 
anyone who would watch those videos.
    But I think there is a bigger issue here that really for me 
it carries out something, and Ms. Ohden and Ms. Jessen. You 
made a statement in your opening statement about, you talked 
about, and I have heard this, and I have counseled many who 
have either had abortions or were thinking about abortion in my 
life and what I have done as a chaplain, as a pastor, but also 
as an attorney. And you made a statement, because I have heard 
this before, if a baby is disabled, we need to terminate the 
pregnancy as if someone on the outside can determine a quality 
of life.
    And that, frankly, from my position, and was mentioned by 
even a friend of mine. He is a friend. We disagree greatly on 
this issue. It is many times a mom and a dad who are facing a 
tough decision just like we did 23 years ago when my daughter, 
we found out she had spina bifida. My wife went back to work, 
and in a time of much emotional turmoil, a colleague of hers 
said in very interesting ways, I am being helpful. You have 
choices. You do not have to go through this. We were a young 
couple back then. She was just starting teaching, and I was 
working.
    Yes, there are life choices made, Ms. Smith. But as you go 
along and as you look at this, my wife finally figured out what 
she was trying to tell her. She said you can go kill your 
child, and you will not have to worry about it anymore. When my 
wife understood that, she said you are talking about my baby. 
Not a fetus, a baby.
    Today I think we miss this, and this is what gets lost in 
this debate about quality of life and other issues of when they 
are born and how they are not born. But the two of you have 
lives that are so productive. You are not a failure. You are a 
failure of a misguided person who would want to kill you before 
you could say you are killing me, but you are not a failure. 
Cerebral palsy, I love you how you said that, ``my blessing.'' 
I never thought that I would have a chance to think that the 
first steps my daughter would ever take was rolling in a 
wheelchair.
    She texted me earlier today, and she was just asking how 
your day was going. I said it is a pretty hard day. I did not 
tell her what I was doing. She is at a place getting job skills 
and life training to be independent. And she said, well, Dad, 
whatever you are going through, I am praying for you.
    My child has a life, and there are many in the abortion 
industry that are willingly telling people that if you have a 
child that has the most debilitating condition or even up to 
spina bifida or other issues, you do not have to go through 
with this. We forget in this argument today, and I am so over 
context, I am so over clinics, and we like our clinic better 
than the other clinic, Ms. Smith. There are other clinics that 
are out there that can help women and help meet issues. You 
know that. You may not like them. That is your choice.
    But I am so over the fact that we miss a fundamental issue 
here, and that is life. For me, I commend the hearing. I think 
it is something because I just do not see a context it can be 
actually explained away. We want to, and if I was you, Ms. 
Smith, I would want to as well. But at the end of the day, let 
us stand up and ask the hard questions, and remember that life, 
and remember those, as you said, Ms. Jessen, even those who do 
not really have a voice. If we do not let them have a voice, 
then they are silent. And for many of us, we will never be 
silent because life is precious, and for me, they deserve a 
birthday.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman. It has been a long day 
for the witnesses in particular. I want to thank you all for 
being here and spending the time.
    I do observe that there is a sad and a cruel irony in those 
who say they are against abortion and trying to defund an 
organization that works so hard to prevent them. And one of the 
core missions of Planned Parenthood is to prevent unwanted 
pregnancies, and my colleagues apparently want to shut it down.
    We are late in the day, and a lot of people have said a 
number of things, but I would emphasize a couple. We were 
called out as taxpayers here, and I am a taxpayer, too. And I 
want you to know that I appreciate what Planned Parenthood has 
done to prevent STDs, to give cancer screenings to low-income 
women, and to provide contraceptive care. All those things save 
us money as taxpayers, and I think that should be not lost on 
us.
    People have commented that the person who made the video is 
not here, and in my experience in law, that would be an 
important witness, but that has been covered.
    And I would say, too, that I acknowledge and I agree that 
the discussion of these issues on these videos was somewhat 
disturbing, and at least insensitive. The issue for us, though, 
in the Judiciary Committee is to look at what is legal, and 
just on that point, I do not think anything today has shown 
that there has been something illegal here.
    And if you wanted to test that, you could ask the opponents 
if they would agree that there was a schedule of the amounts 
that they would agree was reimbursement as opposed to profit. 
And they would never agree that $30 was the right number or $50 
was the right number because that is really not what is at 
issue here. The legality of this is not at issue. This is an 
issue about abortion, choice, contraception, and everything but 
legality.
    I would also observe that Planned Parenthood has not been 
accused of committing fraud, violating licensing laws, 
violating the Medicaid statutes, so there is a legal issue with 
respect to carving them out for Medicaid. And that has been 
litigated in a number of States because any provider may 
provide these kinds of care unless they are found to have 
violated these laws. Planned Parenthood has not been, and 
attempts to cut them off in Tennessee, Indiana, Arizona, and 
North Carolina have all been fruitless for those reasons.
    So I think it is illuminating in many ways to have this 
hearing. I think it has not really been about legality. It has 
been about a much broader issue, an issue I think we all 
thought would have been settled 40 years ago, that these are 
decisions that are very, very difficult for families.
    And my colleague just shared his, and, gosh, what a thing 
to have go through. But they are not decisions ultimately that 
should be made by our government. They are decisions that 
should be made by a woman in consultation with her doctor and 
in consultation with her family. And it is not for the 
Judiciary Committee or the United States government or any 
government to say how families should handle that very tough 
issue.
    So with respect to the issue of legality, I hope we have 
run our course. We have certainly had enough time to discuss 
it. I do not think we found legality would justify any further 
discussion on this, and I hope we can move forward. And I yield 
back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you. And, Mr. Chairman, you did not 
deserve to be called ignorant by Mr. Nadler. I think you made a 
very informed decision when you called this hearing, and I 
appreciate your doing so. And falling last or near the end as I 
apparently have, I get a chance to address some of the things 
that have been raised.
    First of all, my friend from New York, Mr. Nadler, said 
these people who did the videos were liars because if they were 
otherwise, the videos were legitimate, they would have gone to 
the prosecutor to get these matters prosecuted. But I can 
answer that because I have advised people that came in as 
whistleblowers about things that this Administration cared 
about as they do Planned Parenthood, where they defend them at 
all cost, as they have even after the videos were made public.
    Unfortunately, if you go to a prosecutor as a whistleblower 
on an organization or a group that this Administration 
protects, they prosecute you. I have seen that over and over, 
and that is why at times I have advised people you get a 
lawyer, and we go a different route. But if you go to the 
Justice Department, you will find it is a Department of 
injustice because we have seen it over and over with this 
Administration.
    And as far as cutting and being selective, they did take 
excerpts and put them online, but also put the long video just 
so that people would not be able to come in here and honestly 
say what has been dishonestly said, that they were only trying 
to show a portion. They cut straight to what they felt was 
important, but they put the whole thing up there.
    And then as far as the continued statement that the first 
hearing this Chairman called after the August recess was to 
launch an attack on women's health, I see this as a hearing to 
protect the health of females. I see this Fox News show, 
Outnumbered. That has been my life for many years now. I have a 
wife for 37 years, thanks to her, and I have three wonderful 
daughters. And our first was born 8 to 10 weeks prematurely. 
She got down to three pounds before she started gaining weight 
again. I know what it is to hold a 3-pound child in my hand.
    And I did not know whether to stay with my wife in Tyler or 
to follow the ambulance. My wife said, go do anything you can 
for our child. I followed the ambulance. The doctor said she 
cannot see you. Her eyes are not good enough, but she hears 
you, she knows your voice. You talk to her. You caress her. She 
grabbed the end of my finger. She held it. They said I could 
stay for 2 hours at a time. After 8 hours after they had noted, 
she is pulling strength and life from you. I could not leave. I 
stayed for hour after hour.
    But the thought that somebody could take that little 3-
pound child and rip her leg off, or rip her arm off, and not 
consider that inhumane, or the thought that if we take this 
little child's heart, or liver, or organs and use it for a 
productive purpose for somebody else's life, then it is okay. 
And what really came home was a couple of nights ago, I am in 
the Old Testament right now, and was reading about a woman that 
came complaining to the prophet. And she was in a city that was 
under siege, and she complained that another woman had talked 
her into a deal where the first time they would boil her little 
baby and eat the child, and then after that they would boil the 
second woman's child and eat that child.
    Well, let us face it, come on. This hearing we have heard 
over and over if it is to save lives it is okay. I could not 
believe how reprehensible that was, how immoral, and that seems 
to be happening. But I can tell you I want my girls to have 
mammograms, and whether they have money or not, I want them to 
have mammograms. So does it not make more sense to give that 
money for those of us who deeply care about women's health, 
give it to facilities that actually do the mammograms so 
Planned Parenthood does not take their cut?
    And when anyone says, oh, but it does not go to fund 
abortion, listen, I have been a judge, I have been a 
prosecutor, I have been a chief justice. And if somebody says, 
well, look, we paid all the rent and all the utilities for this 
facility, knowing that a crime was being committed in there, 
you have aided and abetted, and you are as guilty as the 
principle for what happens in that facility.
    And I see my time is up, and I thank you, Mr. Chairman, for 
your indulgence.
    Ms. Lofgren. Mr. Chairman?
    Mr. Goodlatte. The Chair thanks the gentleman. For what 
purpose does the gentlewoman from California seek recognition?
    Ms. Lofgren. I would like to ask unanimous consent to put 
in the record a letter from the California Primary Care 
Association indicating they do not have the capacity to pick up 
the Planned Parenthood casework.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________
    Mr. Goodlatte. This concludes today's first hearing as part 
of this investigation. I want to thank all of our distinguished 
witnesses for attending. We will soon announce the date of the 
next hearing.
    And without objection, all Members will have 5 legislative 
days to submit written questions for the witnesses or 
additional materials for the record.
    This hearing is adjourned.
    [Whereupon, at 2:16 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
                              

                               
                               
                               
                                 <all>
</pre></body></html>
